<html>
<title> - EXPLORING THE U.S. AFRICA COMMAND AND A NEW STRATEGIC RELATIONSHIP WITH AFRICA</title>
<body><pre>[Senate Hearing 110-476]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-476
 
EXPLORING THE U.S. AFRICA COMMAND AND A NEW STRATEGIC RELATIONSHIP WITH 
                                 AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-135 PDF                      WASHINGTON : 2008

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













































                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman

BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)

  




























                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Frazer, Hon. Jendayi E., Assistant Secretary for African Affairs, 
  Department of State, Washinton, DC.............................     5
Gration, MG Jonathan S., USAF (Ret.), former Director, Strategy, 
  Policy, and Assessments, United States European Command........    39
    Prepared statement...........................................    40
Hess, Hon. Michael, Assistant Administrator, Bureau of Democracy, 
  Conflict, and Humanitarian Assistance, U.S. Agency for 
  International Development, Washington, DC......................    13
    Prepared statement...........................................    15
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Malan, Mark Peacebuilding Program Officer, Refugees 
  International, Washington, DC..................................    32
    Prepared statement...........................................    34
Morrison, Dr. J. Stephen, Executive Director, HIV/AIDS Task Force 
  and Director, Africa Program, Center for Strategic and 
  International Studies, Washington, DC..........................    26
    Prepared statement...........................................    29
Whelan, Theresa, Deputy Assistant Secretary for African Affairs, 
  Department of Defense, Washington, DC..........................     8
    Prepared statement...........................................    10

                                 (iii)

  


EXPLORING THE U.S. AFRICA COMMAND AND A NEW STRATEGIC RELATIONSHIP WITH 
                                 AFRICA

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2007

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russ Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold, Nelson, Webb, and Lugar.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Good morning. Welcome. Thank you all for 
joining me and my esteemed colleague, the ranking member of the 
full committee, Senator Lugar, for this hearing to explore the 
U.S. Africa Command and a new strategic relationship with 
Africa.
    As many of you know, I have supported the idea of a United 
States Armed Forces Regional Combatant Command for Africa for a 
long time. Last June, I introduced legislation mandating a 
Pentagon study on the feasibility and desirability of 
establishing an Africa Command, and asked the Defense 
Department to report to Congress on the potential pros and cons 
of such a command, and to provide an estimate of the resources 
it would require.
    Plans for the new Africa Command--now commonly called 
AFRICOM--have proceeded swiftly since then. I'm glad that the 
administration has recognized Africa's increasing strategic 
importance and has pledged to adopt a more comprehensive 
approach toward the challenges and opportunities presented by 
this diverse continent.
    While I welcome the President's announcement of the 
creation of an AFRICOM, I am aware that the Combatant Command, 
which still exists only at the planning stage, has been the 
subject of much scrutiny and debate within the policy community 
here in Washington as well as by friends abroad and in the 
media. In addition, since AFRICOM's inception there have been, 
in my opinion, far too few conversations between the planning 
team and those of us on Capitol Hill who are focused on Africa.
    I hope that today's hearing will address some of the 
concerns that have been raised while allowing full discussion 
of the decisions that have already been made and those that are 
still forthcoming. With the formation of this command, we are 
at a significant turning point in our relationship with Africa, 
and we must ensure our actions are aligned with our objectives.
    Africa presents a number of security-related challenges, 
including violent conflicts with far-reaching spillover 
effects, significant displaced populations, maritime 
insecurity, large-scale corruption, and the misappropriations 
and exploitation of natural resources. The question, however, 
is not whether the United States needs to work aggressively and 
cooperatively to address these concerns, but how we should do 
so in order to be as effective as possible.
    There is no doubt that our Nation's military expertise is 
one of our greatest assets, but meaningful and sustainable 
contributions to security and development in Africa must 
address the underlying causes of these security challenges 
throughout the continent. Many of these challenges are not 
military at their core, but instead require significant 
improvement in the capacity of local governments, with an 
emphasis on the rule of law, economic development, 
democratization, and, of course, anticorruption measures. 
Furthermore, many threats throughout the African Continent are 
not confined by national borders, which poses additional 
obstacles and requires extensive collaboration and coordination 
between African governments if they are to be effectively 
combated. The United States must pursue a seamless and 
adaptable policy on the continent that will enhance and expand 
national and regional capacity in Africa.
    I understand that these objectives are in line with those 
espoused by the AFRICOM planning team and I am prepared to 
fully support a unified interagency United States approach that 
creates a military command with the primary mission of 
supporting our policies toward Africa and ensuring continued 
diplomatic, development, humanitarian assistance, and regional 
initiatives led by the Department of State, USAID, and other 
key stakeholders--including national and international NGOs, 
other bilateral and multilateral development bodies, and of 
course, African political and military leaders. If designed, 
deployed, and equipped with these goals in mind, this command 
will contribute to broader United States Government efforts 
throughout the continent, and will help provide an additional 
platform for regional thinking, strategizing, and activity that 
will advance the strategic interests of our country throughout 
Africa.
    It is abundantly clear that the United States national 
security, international stability, and the ability of African 
countries to achieve their full growth and development 
potential depend upon improving and expanding governance and 
accountability so that legitimate grievances are addressed and 
extremism cannot take root. This will require strengthening 
national and regional commitment and capacity to provide 
physical security while also protecting human rights and 
democratic freedoms.
    And now, let me introduce our two distinguished panels. On 
our first panel, we have three witnesses from the U.S. 
Government. We have the State Department's Assistant Secretary 
for African Affairs, Dr. Jendayi Frazer; the Defense 
Department's Ms. Theresa Whelan; and Mr. Michael Hess, the 
Assistant Administrator for the Bureau of Democracy, Conflict, 
and Humanitarian Assistance at the U.S. Agency for 
International Development. We asked each of them to address the 
planning and expectations for AFRICOM, key challenges, resource 
requirements, and the interagency process, thus far. To the 
extent possible, I'd like to avoid generalities, and hope this 
can be a frank and detailed conversation. We're very glad that 
you are here today. I will introduce the second panel at the 
appropriate time.
    Now, I'm delighted to turn to our ranking member of the 
full committee, who's extremely active in African affairs 
throughout his distinguished career here, Senator Lugar.

 STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. 
It's great to be a teammate with you again today in this 
important hearing.
    I want to veer away from AFRICOM, for just a moment, to 
commend the United Nations for acting on Darfur yesterday by 
authorizing 26,000 peacekeeping troops. And it was a red-letter 
day, because the Senate approved Resolution 276, which asks the 
Bush administration to urgently request the necessary funding 
to cover our portion of the costs of that vital mission. We 
state, in the resolution, that failure of the international 
community to take all steps necessary to generate, deploy, and 
maintain United Nations/African Union hybrid peacekeeping 
forces will result in the continued loss of life and further 
degradation of humanitarian infrastructure in Darfur. History 
has shown that peacekeeping success depends on size, resources, 
mandate, mobility, and command structure of the force, and the 
mission must be accompanied by a peacekeeping process among the 
parties in the conflict. We strongly urge our Government, as 
well as others, to act swiftly and robustly.
    Let me just say, with the creation of a new Defense 
Department Combatant Command for Africa with a State Department 
component, it's an issue that interests this committee, from a 
number of different perspectives. What might be the advantages 
of such a new command? A new command would bring new focus and 
attention to a continent that has been roiled by conflict, most 
often by internal strife that spills over borders, creating 
tragic refugee flows and new conflicts in neighboring states. 
We would benefit as a nation if our military can develop a more 
sophisticated understanding of a region that is ever changing 
and highly complex. A Combatant Command for Africa would not be 
distracted by problems in the Balkans, or wars in Afghanistan 
and Iraq, or problems in other areas of the world, as is the 
case now, as three Combatant Commands divide parts of Africa 
into regionally mixed portfolios. Instead, an Africa Command 
could focus on building regional and subregional African 
peacekeeping capability and strengthening the ability of 
partner nations to counter terrorists on their own soil.
    Concerns that the region could provide havens for 
terrorists are justified. The bombings of U.S. Embassies in 
Tanzania and Kenya in 1998 demonstrated the lethal impact that 
even small bands of violent extremists in Africa have when they 
target U.S. interests. Somalia has been a known haven for 
terrorists and a primary preparation and transit area for past 
terror attacks.
    With the proposed creation of this new command, however, it 
is time to come to grips with the appropriate roles of the 
Department of State and the Department of Defense in deciding 
which countries are best prepared to receive American security 
assistance, and how that security assistance would be used.
    With greater expertise created within a new regional 
command, our hope is that there would be few disagreements 
between the two Departments on the appropriateness of security 
assistance to specific African nations. But, undoubtedly, some 
differences of opinion will occur. It is my view that it is 
only the Secretary of State who has the balanced overview of 
the full range of U.S. foreign policy interests in a country or 
in a region. Determination as to which countries should receive 
U.S. military equipment and training, and the extent and type 
of such training, are fundamentally foreign policy decisions. 
Judgments on whether a potential recipient has the human rights 
and due process protections in place to warrant a strengthening 
of the security sector should be the Secretary of State's call. 
Likewise, whether a stronger military in one country will upset 
a balance in the subregion or cause neighbors to feel 
threatened is also a foreign policy, and not a military 
judgment, and it belongs to the Secretary of State.
    It is crucial that ambassadors on the ground provide strong 
leadership, steady oversight, and a firm hand on the component 
parts of all counterterrorism activities in their countries of 
assignment. This includes the authority to challenge and 
override directives from combatant commanders or other DOD 
personnel to their resident or temporary staffs in the embassy.
    This hearing provides an opportunity to raise a number of 
related issues. To what extent are the State Department and 
USAID involved in planning for the proposed new command? It is 
important to have the civilian agencies weigh in, especially 
when making the strategic decision as to whether the value of 
creating such a command outweighs the potentially negative 
impact. Robust Secretary of State involvement can minimize the 
dangers that critics envision. A disproportionally military 
emphasis in our African policy, and a message that such a 
command presages a disposition for military intervention in 
Africa, would be undesirable.
    How would the new combatant commander relate to 
ambassadors? Are more formal mechanisms needed to lay out roles 
and responsibilities? For example, are memoranda of 
understanding--MOUs--necessary?
    I understand that there is consideration being given to 
having a State Department official serve as one of the two 
deputies in the command. This is a new configuration. In the 
past, combatant commanders have had political advisors from the 
State Department. Would the new State Department deputy have 
his or her own staff? And would the deputy report to State 
Department or the Department of Defense? What would be the 
relationship of the deputy to the African Bureau at the 
Department? What is the expectation on the part of Department 
of Defense as to its role in Africa? Does it intend to go well 
beyond working to strengthen counterterrorism and peacekeeping 
capacity in the region? Would there be efforts to have our 
military also involved in humanitarian economic development and 
nation-building activities throughout the continent, as it is 
in the Horn of Africa?
    I appreciate the opportunity to explore all of these issues 
with distinguished witnesses. We look forward to your testimony 
and your responses to our questions.
    Thank you very much, Mr. Chairman.
    Senator Feingold. Thank you, Senator Lugar, for your 
comments and your excellent questions.
    I'm happy to see Senator Webb here. One of the first things 
he did when he came to the Senate was come talk to me about his 
interest in Africa. I ask if he has any comments at this time.
    Senator Webb. No, thank you, Mr. Chairman. It's just a 
pleasure to be here. I'm new on this subcommittee, as you know. 
I've got a long history of different types of relationships 
with the Department of Defense, however, and I'm very curious 
to hear exactly how this Africa Command is going to work, which 
is the reason I'm here. I'm looking forward to the testimony.
    Senator Feingold. Thank you, Senator. We will now begin 
with the first panel.
    Secretary Frazer.

 STATEMENT OF HON. JENDAYI E. FRAZER, ASSISTANT SECRETARY FOR 
      AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Frazer. Thank you very much, Mr. Chairman and 
distinguished members of the committee, for inviting me to 
testify here today on a topic that will be a true innovation in 
our Africa engagement by providing a new vehicle for addressing 
security issues in Africa.
    I must say, first of all, that we in the State Department, 
and especially in the Bureau of African Affairs and the Bureau 
of Political Military Affairs, strongly support the creation of 
the U.S. Africa Command, AFRICOM. We believe AFRICOM will be an 
important asset in our overall African policy, and we welcome 
the Department of Defense's greater commitment of resources and 
participation in African issues. The military has long been 
involved in African affairs through the U.S. European, Central, 
and Pacific Commands, each of which has had responsibility for 
a portion of the continent, but now, with the creation of 
AFRICOM, Africa will be addressed in its own right as the 
unique and separate part of the world that it really is, with 
all areas of the continent, except Egypt, under a single 
unified command. And Egypt, despite its vital historical role 
in the Middle Eastern affairs, will not be ignored, but will be 
considered as a country of special concern for AFRICOM. All of 
Africa finally will get the full attention of one of our 
highest ranking and most experienced senior military leaders, 
supported by a staff uniquely structured to meet the challenges 
of this part of the world.
    We in the State Department are pleased to see the 
nomination of General William Ward as AFRICOM's first 
commander. He has the background and experience to lead this 
initiative, and we look forward to working closely with him if 
he is confirmed by the Senate.
    From the inception of AFRICOM, the State Department has 
been closely involved in the planning process, beginning last 
fall, when the Department of Defense established its AFRICOM 
Implementation Planning Team. Both the Bureau of African 
Affairs and the Bureau of Political Military Affairs assigned 
senior officers to this planning team, working with Department 
of Defense officials full time for many weeks. Several other 
State Department bureaus also had officers participating, 
bringing functional expertise to key portions of the planning 
process. This process has largely occurred in an atmosphere of 
cooperation and collaboration.
    It is important to note that, throughout this process, we 
have seen no need to alter the current authorities that govern 
State/
Defense collaboration in the field or in Washington. The 
Department of State will continue to exercise full foreign 
policy primacy and authority in Africa, and I am confident that 
no one in the Department of Defense disagrees with this. The 
Assistant Secretary for African Affairs will continue to be the 
lead policymaker in the U.S. Government on African issues, 
including regional security policy. Each chief of mission in 
the field in Africa will continue to act as the President's 
personal representative in the country to which he or she is 
accredited, and to exercise full authority over all of the 
United States Government's peacetime activities.
    State, therefore, will continue to provide leadership for 
the exercise of authority over State's 47 embassies, which can 
be considered diplomatic interagency bases on the continent. In 
the AFRICOM area of responsibility, State Department will have 
its personnel, on assignments of 2 to 3 years, whose 
responsibility it is to understand that host-country government 
and people, and to influence the implementation of our foreign 
policy.
    The Department of Defense and the U.S. military will 
continue to support the Department of State in the pursuit of 
U.S. foreign policy goals, while we at the Department of State 
will continue to fully support the military in its efforts to 
promote the security and safety of the United States. We will 
work together to promote security and stability in Africa. We 
all know that Africa cannot fully develop economically, 
politically, or socially where there is violence, the threat of 
terrorism, or fear about the security of legitimate governments 
and the people they represent. The continued violence in 
eastern Congo, at present, offers an example of where AFRICOM 
can play an important role in building security, perhaps by 
providing training and material assistance to the legitimate 
military of the Democratic Republic of the Congo.
    We are not at war in Africa, nor do we expect to be at war 
in Africa. Our embassies and AFRICOM will work in concert to 
keep it that way. We expect the largely civil-military 
activities of AFRICOM to help states strengthen regional 
security policies and their implementation. AFRICOM will draw 
upon our embassies in the field for most of the information it 
will use to guide its security cooperation programs and its 
overall interaction with Africa.
    Throughout the process of creating AFRICOM, we have 
carefully considered the views and reactions of our regional 
friends and those from outside the region who have significant 
interest in Africa. A delegation of senior officials from the 
Department of Defense, the Department of State, and the U.S. 
Agency for International Development have already completed two 
extensive trips to Africa to consult with many African states 
on AFRICOM, and have found a generally positive reaction in 
sub-Saharan Africa. We expect to conduct additional 
consultations with African officials and with our allies who 
have strong interests in Africa in the near future.
    Consultations are also ongoing with various international 
organizations and nongovernmental agencies on AFRICOM. As one 
would expect with a subject of this importance and scope, the 
reactions have been varied and diverse.
    There has been much written and rumored about AFRICOM over 
the past several months: Where it will be located; how it will 
be structured; degree to which there will be State Department 
and interagency participation. I want to make it clear that no 
final decisions have been made about the location of AFRICOM's 
headquarters in Africa, although it is AFRICOM's plan to 
establish an initial headquarters presence on the continent by 
October 2008. Until then, it will be located in Stuttgart, 
Germany, not far from the European Command.
    The current thinking is there will be a subordinate office 
in several other places on the African Continent as well. But 
this decision has not yet been taken, and those locations have 
not yet been determined.
    State will also provide officers to work in AFRICOM, 
including one of the two deputy commanders working for General 
Ward, if he is confirmed. A senior State officer will be the 
deputy to the commander in charge of civil-military affairs, 
coordinating those activities in AFRICOM with our policymakers 
in Washington and our embassies in Africa. The other deputy 
commander, a uniformed military officer, will be in charge of 
the purely military aspects of AFRICOM. The State Department 
will also provide another senior officer, who will serve as the 
political advisor to the combatant commander.
    So, we will be well represented on the AFRICOM leadership 
team. State and other civilian agencies also will provide a 
number of other officers to work in leadership, management, and 
functional positions as AFRICOM staff, in addition to 
traditional advisors.
    In addition, we expect to add staff in the Bureau of 
African Affairs who will assist in the interface with AFRICOM 
and its various elements.
    The Department of State views the creation of AFRICOM as a 
major advancement in our comprehensive Africa policy and 
engagement strategy. It is the beginning of a long and fruitful 
collaboration. It is, in many ways, the marriage of State's 
expertise and authorities with the military's resources and its 
security experience, and we are excited about it.
    I would be glad to take any questions that the committee 
might have.
    Thank you very much.
    Senator Feingold. Thank you, Secretary.
    I'd ask witnesses generally to limit your remarks to 5 
minutes; put their full statement in the record. I did want to 
hear the full statement, of course, from our Assistant 
Secretary.
    But, please, Ms. Whelan, proceed.

  STATEMENT OF THERESA WHELAN, DEPUTY ASSISTANT SECRETARY FOR 
     AFRICAN AFFAIRS, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Whelan. Thank you very much, Mr. Chairman and 
distinguished members of the subcommittee. I thank you for the 
opportunity to provide DOD's perspective on Africa Command.
    Africa has long been seen as a problem to be solved, a 
continent of failed states, faltering economies, regional 
conflicts, and corrupt leadership. This image, though, is a far 
cry from the Africa of today. With the support of international 
partners, Africans are slowly but surely instituting democracy 
and good governance across the continent.
    Our security cooperation with Africa is one aspect of our 
collaboration with Africa, but it is a small part of our 
overall relationship. The United States spends approximately $9 
billion a year in Africa, funding programs in such areas as 
health, development, trade and trade promotion, and good 
governance. In contrast, security-related programs receive only 
about $250 million a year. This security assistance includes 
such things as peacekeeping training programs, border and 
coastal security capacity development programs, logistics and 
airlift support to peacekeeping operations, and joint training 
exercises with African militaries throughout the continent. A 
great deal of our training is focused on improving the level of 
professionalization and technical proficiency in African 
militaries. We do our best to convey, through this training, 
respect for human rights, the rule of law, and the proper role 
of a civilian-controlled military in a democracy.
    We are now taking this relationship a step further. In 
February 2007, the President announced his decision to create a 
unified command for Africa, United States Africa Command, or 
AFRICOM. Although the structure is new, the nature of our 
military engagement on the African Continent will not change. 
It will remain primarily focused on conducting theater security 
cooperation to build partnership capacities in areas such as 
peacekeeping, maritime security, border security, and 
counterterrorism skills, and, as appropriate, supporting U.S. 
Government agencies in implementing other programs that promote 
regional stability.
    For many years, our military relationships on the continent 
have been implemented by three separate commands: U.S. European 
Command, U.S. Central Command, and the U.S. Pacific Command. 
While these commands executed their missions well, AFRICOM 
presents an opportunity to eliminate the bureaucratic divisions 
and operational seams created by this organizational structure. 
We hope that AFRICOM will allow DOD civilian and military 
leaders to take a more holistic and operationally efficient 
approach to the opportunities and challenges that lay ahead as 
Africa's multilateral institutions, such as the African Union 
and the regional economic communities, figure more prominently 
in African security affairs. Consolidation under one command 
has the potential to better support the development of these 
important regional mechanisms and relationships.
    In many ways, the creation of this command is a historic 
opportunity to catch up to Africa's quickly evolving 
continental and regional security structures and their 
increasing capacities, to synergize African efforts in both the 
governmental and nongovernmental spheres, and to address the 
significant security challenges on the continent. AFRICOM 
represents an opportunity to strengthen and expand United 
States and African relationships in such a way that our 
combined efforts can help generate more indigenous, and, 
therefore, more sustainable, peace and security on the 
continent.
    AFRICOM is an innovative command in several ways. First, 
AFRICOM will include a significant number of representatives 
from other U.S. agencies within its staff, including officers 
from the Department of State and the U.S. Agency for 
International Development. These interagency officers will 
contribute their knowledge and expertise to the command so that 
AFRICOM will be more effective as it works to build 
peacekeeping, humanitarian relief, and disaster response 
capacity in Africa. It will also help AFRICOM identify ways 
that DOD can support other U.S. Government Departments and 
Agencies and their initiatives in Africa.
    Second, the commander will have both a military and 
civilian deputy. The Deputy to the Commander for Civil-Military 
Affairs, or DCMA, will be a senior Foreign Service officer from 
the Department of State. This civilian deputy will be 
responsible for the planning and oversight of the majority of 
AFRICOM's security assistance work. In particular, the DCMA 
will work with the State Department and the African Union on 
developing ways in which AFRICOM can provide effective 
training, advisory, and technical support to the development of 
an African standby force. State Department leadership at this 
senior level will also enhance AFRICOM's ability to support 
such State Department-funded endeavors as the African 
contingency operations training and assistance program, a 
mainstay of the United States effort to build peace support 
operations capacity in Africa.
    Third, AFRICOM will depart from the traditional J-code 
structure, recognizing that AFRICOM's focus is on war 
prevention, rather than warfighting. We are reorganizing the 
inner workings of the command to best position it for theater 
security cooperation activities and to prevent problems from 
becoming crises, and crises from becoming catastrophes or 
conflicts.
    There are many misconceptions about what AFRICOM will look 
like and what it will do. I would like to address a couple of 
these misconceptions and concerns here.
    First, some people believe that we are establishing AFRICOM 
solely to fight terrorism or to secure oil resources or to 
discourage China. This is not true. Violent extremism is a 
cause for concern, and needs to be addressed, but this is not 
AFRICOM's singular mission. Natural resources represent 
Africa's current and future wealth, but in an open-market 
environment, many benefit. Ironically, the United States, 
China, and other countries share a common interest, that of a 
secure environment in Africa, and that's AFRICOM's objective. 
AFRICOM is about helping Africans build greater capacity to 
assure their own security.
    Some have also raised the concern that AFRICOM will take 
control of security issues on the continent. Our intent is 
quite the contrary. The purpose of AFRICOM is to encourage and 
support African leadership and initiative, not to compete with 
it or to discourage it. United States security is enhanced when 
African nations themselves endeavor successfully to address and 
resolve emerging security issues before they become so serious 
that they require considerable international resources and 
intervention to resolve.
    Finally, there are fears that AFRICOM represents a 
militarization of United States foreign policy in Africa, and 
that AFRICOM will somehow become the lead U.S. Government 
interlocutor with Africa. This fear is unfounded. AFRICOM will 
support, not shape, U.S. foreign policy on the continent. The 
Secretary of State will remain the chief foreign policy advisor 
to the President, and the Secretary of Defense will remain his 
chief advisor on defense. The creation of a single United 
States DOD point of contact for Africa will simply allow DOD to 
better coordinate its own efforts, in support of State 
Department leadership, to better build security capacity in 
Africa. The intent is not for DOD, generally, or for AFRICOM, 
at the operational level, to assume the lead in areas where 
State and/or the USAID has clear lines of authority, as well as 
the comparative advantages to lead. DOD will seek to provide 
support, as appropriate and as necessary, to help the broader 
U.S. Government national security goals and objectives to 
succeed.
    Thank you very much for this opportunity. I'll look forward 
to your questions.
    [The prepared statement of Ms. Whelan follows:]

  Prepared Statement of Theresa Whelan, Deputy Assistant Secretary of 
   Defense for African Affairs, Office of the Secretary of Defense, 
                             Washington, DC

                              introduction
    Africa has long been seen as a problem to be solved--a continent of 
failed states, faltering economies, regional conflicts, and corrupt 
leadership. This image is far cry from the Africa of today. This is a 
year in which we celebrate the half century of the historic 
independence of Ghana, and where the economic growth rate of the 
continent has averaged 5 percent for the past 3 years. In November 
2005, Ellen Johnson Sirleaf was democratically elected to replace 
Charles Taylor, who is now at The Hague to stand trial for the 
brutality he unleashed in the region in the early 1990s. She is the 
second elected black woman head of state in the world.
    The credit for this progress goes to the African people. With the 
support of international partners, Africans are slowly but surely 
instituting democracy and good governance across the continent, 
enabling more and more people to build their lives and pursue their 
livelihoods in a context of security and freedom, choice and 
opportunity.
    Challenges do remain. Poverty, disease, and conflict persist. 
Corruption flourishes where the rule of law is weak. Gaps in 
infrastructure, technology, and legal protections discourage local and 
foreign investment. We in the United States are in a position to help 
African nations develop the capacity to address these challenges.
    The United States spends approximately $9 billion a year in Africa, 
funding programs in support of a wide range of areas. The U.S. is 
helping to train health care professionals and provide desperately 
needed hospital equipment, train teachers and provide educational 
materials, prevent the spread of HIV/AIDS through various awareness 
programs, train prosecutors in support of the legal reforms and the 
promotion of independent judiciaries, train police forces consistent 
with important human rights norms, and to train customs and border 
control officers to increase capacities to thwart illicit trafficking 
of weapons, narcotics, and even children across national borders.
    We are looking for ways to increase capital and trade flows, the 
means by which mutual prosperity is built. The African Growth and 
Opportunity Act, for example, grants African economies preferential 
access to our markets. The Millennium Challenge Account offers 
countries that have met standards of responsible and accountable 
governance to develop and propose extensive projects that target 
development goals that they themselves have identified.
    All of these activities are undertaken in partnership with African 
governments, African institutions, and African organizations.
             strengthening our relationships with africans
    Our security cooperation with Africa is one aspect of our 
collaboration with Africa--but it is a small part of our overall 
relationship.
    This security assistance includes joint training exercises with 
African militaries throughout the continent. We provide a great deal of 
training to improve the level of professionalization and technical 
proficiency in African militaries. We do our best to convey through 
this training respect for human rights, the rule of law, and the proper 
role of a civilian-controlled military in a democracy. We provide 
equipment--in some cases granting the funds to do so--to meet African 
defense and security needs. We established the Africa Center for 
Strategic Studies in Washington, DC, to promote a continuous dialogue 
between African military and civilian leaders and their U.S. 
counterparts on important security issues. In Nairobi, we instituted 
the Regional Disaster Management Center of Excellence. We engage on a 
daily basis with African military chains of command through our 
embassy-based Defense Attaches and Defense Cooperation Chiefs. Every 
step of the way, we consult with our African partners and listen to 
what they have to say.
    We are now taking this relationship a step further. In February 
2007, the President announced his decision to create a Unified Command 
for Africa--U.S. Africa Command, or ``AFRICOM.''
    Although this structure is new, our military engagement on the 
African Continent will remain primarily focused on building partnership 
capacities, conducting theater security cooperation, building important 
counterterrorism skills and, as appropriate, supporting U.S. Government 
agencies in implementing other programs that promote regional 
stability. For many years our military relationships on the continent 
have been implemented by three separate commands: U.S. European 
Command, U.S. Central Command and U.S. Pacific Command. While these 
commands executed their missions well, AFRICOM presents an opportunity 
to eliminate the bureaucratic divisions and operational seams created 
by this organizational structure. We hope that AFRICOM will allow DOD 
civilian and military leaders to take a more holistic and operationally 
efficient approach to the opportunities and challenges that lay ahead 
as Africa's multilateral institutions, such as the African Union and 
the Regional Economic Communities, figure more prominently in African 
security affairs. Consolidation under one command has the potential to 
better support the development of these important regional mechanisms 
and relationships.
                    rationale for africom's creation
    Stability and prosperity in Africa are important to the long-term 
interests of the United States. A stable, healthy, and more prosperous 
Africa will contribute to global security and a stronger world economy.
    Many of Africa's security challenges are not limited by country 
boundaries but are transnational and regional in nature. African 
governments and institutions are using new approaches to address these 
challenges, and our engagement with Africa needs to reflect these 
African institutional innovations at the regional level.
    In many ways, the creation of this command is a historic 
opportunity to ``catch up'' to Africa's quickly evolving continental 
and regional security structures, and their increasing capacities to 
synergize African efforts in both the governmental and nongovernmental 
spheres to address the significant security challenges on the 
continent. AFRICOM represents an opportunity to strengthen and expand 
U.S. and African relationships in such a way that our combined efforts 
can help generate a more indigenous and, therefore, more sustainable 
peace and security on the continent. AFRICOM also is a manifestation of 
how DOD is innovating to transform its ability, institutionally, to 
meet the challenges of the new global security environment.
                         africom's innovations
    AFRICOM is an innovative command in several ways. First, unlike a 
traditional Unified Command, it will focus on building African regional 
security and crisis response capacity. AFRICOM will promote greater 
security ties between the United States and Africa, providing new 
opportunities to enhance our bilateral military relationships, and 
strengthen the capacities of Africa's regional and subregional 
organizations.
    Second, AFRICOM will include a significant number of 
representatives from other U.S. agencies within its staff, including 
officers from the Department of State and the U.S. Agency for 
International Development (USAID). A variety of agencies have existing 
bilateral relationships with African governments--from collaborating to 
promote aviation safety to working with local NGOs to develop conflict 
mediation programs targeted at youth. These interagency officers will 
contribute their knowledge and expertise to the command so that AFRICOM 
will be more effective as it works to build peacekeeping, humanitarian 
relief, and disaster response capacity in Africa. They will also help 
AFRICOM identify ways that DOD can support other U.S. Government 
Departments and Agencies' initiatives in Africa.
    Third, the Commander will have both a military and civilian deputy. 
The Deputy to the Commander for Civil-Military Affairs (DCMA) will be a 
Senior Foreign Service officer from the Department of State. This 
civilian deputy will be responsible for the planning and oversight of 
the majority of AFRICOM's security assistance work. In particular, the 
DCMA will work with the State Department and the African Union on 
developing ways in which AFRICOM can provide effective training, 
advisory and technical support to the development of the African 
Standby Force. State Department leadership at this senior level will 
also enhance AFRICOM's ability to support such State Department funded 
endeavors as the African Contingency Operations Training and Assistance 
(ACOTA) program, a mainstay of the U.S. effort to build peace-support 
operations capacity in Africa.
    Fourth, AFRICOM will depart from the traditional J-code 
organization structure. Originating in the Napoleon age, this has 
proven to be an extremely effective method of organizing a command for 
war-fighting. Recognizing that AFRICOM's focus is on war-prevention 
rather than war-fighting, we are reorganizing the inner workings of the 
command to best position it for theatre security cooperation activities 
and preventing problems before they become crises and preventing crises 
before they become catastrophes.
                      africom myths versus reality
    There are many misconceptions about what AFRICOM will look like and 
what it will do. I would like to address these misperceptions and 
concerns here.
    First, some people believe that we are establishing AFRICOM solely 
to fight terrorism, or to secure oil resources, or to discourage China. 
This is not true. Violent extremism is cause for concern, and needs to 
be addressed, but this is not AFRICOM's singular mission. Natural 
resources represent Africa's current and future wealth, but in a fair 
market environment, many benefit. Ironically, the U.S., China and other 
countries share a common interest--that of a secure environment. 
AFRICOM is about helping Africans build greater capacity to assure 
their own security.
    Second, some have raised the concern that AFRICOM will take control 
of security issues on the continent. Our intent is quite the contrary. 
DOD recognizes and applauds the leadership role that individual African 
nations and multilateral African organizations are taking in the 
promotion of peace, security, and stability on the continent. For 
example, AFRICOM can provide effective training, advisory and technical 
support to the development of the African Standby Force. This is 
exactly the type of initiative and leadership needed to address the 
diverse and unpredictable global security challenges the world 
currently faces. The purpose of AFRICOM is to encourage and support 
such African leadership and initiative, not to compete with it or to 
discourage it. U.S. security is enhanced when African nations 
themselves endeavor to successfully address and resolve emergent 
security issues before they become so serious that they require 
considerable international resources and intervention to resolve.
    Finally, there are fears that AFRICOM represents a militarization 
of U.S. foreign policy in Africa and that AFRICOM will somehow become 
the lead U.S. Government interlocutor with Africa. This fear is 
unfounded. AFRICOM will support, not shape, U.S. foreign policy on the 
continent. The Secretary of State will remain the chief foreign policy 
advisor to the President, and the Secretary of Defense will remain his 
chief advisor on defense and security matters. The creation of a single 
U.S. DOD point of contact for Africa will simply allow DOD to better 
coordinate its own efforts, in support of State Department leadership, 
to better build security capacity in Africa. The intent is not for DOD 
generally, or for AFRICOM at the operational-level, to assume the lead 
in areas where State and/or USAID has clear lines of authority as well 
as the comparative advantages to lead. DOD will seek to provide 
support, as appropriate and as necessary, to help the broader U.S. 
Government national security goals and objectives succeed.
                          standing up africom
    We are moving quickly to stand up AFRICOM through a Transition 
Team, which includes officers from the Department of State and USAID, 
that is located in Stuttgart, Germany. It is coordinating the planning 
for the Command, including the location of the headquarters and 
organizational structure, with U.S. European Command to ensure an 
effective transition. AFRICOM will be stood up as a subunified command 
under European Command by October 1, 2007, and is scheduled to be fully 
operational no later than October 1, 2008.
    The establishment of AFRICOM--and the participation of State, 
USAID, and other U.S. agencies--demonstrates the importance the U.S. 
Government places on strengthening ties with Africa. With AFRICOM, the 
United States will be working in partnership with Africans to foster an 
environment of security and peace--an environment that will enable 
Africans themselves to further strengthen their democracies, 
institutionalize respect for human rights, pursue economic prosperity, 
and build effective regional institutions. A more stable Africa serves 
the goal of helping to foster a more stable global environment.

    Senator Feingold. Thank you, Ms. Whelan.
    Mr. Hess.

STATEMENT OF HON. MICHAEL HESS, ASSISTANT ADMINISTRATOR, BUREAU 
   OF DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Hess. Thank you, Chairman Feingold, Ranking Member 
Lugar, and distinguished members of the subcommittee. It is an 
honor to appear before you today to discuss USAID's involvement 
in the establishment of the United States Africa Command.
    I will briefly review USAID's history in cooperation with 
the military, explain our role, both in the initial planning 
for AFRICOM and our continued engagement with the command, and 
detail the resources we expect to contribute to it.
    Since the passage of the Foreign Assistance Act of 1961, 
USAID has been the principal U.S. Government agency providing 
assistance to countries recovering from disasters, trying to 
escape poverty, and engaging in democratic reforms.
    With regard to our disaster assistance and development 
portfolios, we have had many occasions to cooperate with the 
military over the years. Our most obvious collaborations are in 
the area of emergency humanitarian assistance at both natural 
disasters and complex emergencies. During Operation Provide 
Comfort in 1991, for example, our disaster assistance response 
teams worked closely with coalition forces to facilitate the 
safe return of Kurdish civilians to northern Iraq. At the time, 
I was serving as a U.S. Army lieutenant colonel in civil 
affairs, and Operation Provide Comfort was my first operational 
experience with USAID's humanitarian assistance work, and where 
I met Fred Cuny.
    USAID also has experience collaborating with the military 
in peacetime civic action projects. For example, USAID's 
missions in Djibouti, Ethiopia, and Kenya have worked on 
educational projects with Combined Joint Task Force Horn of 
Africa, in which the military builds or refurbishes schools and 
the USAID furnishes schoolbooks and supports teacher training.
    This long record of collaboration with the military 
suggests that the cooperative relationship that is envisioned 
by AFRICOM is not entirely new, yet experience has also taught 
us that when we work with the military, maintaining the 
essential humanitarian and development character of USAID is 
vital. USAID coordination with DOD should not be perceived as 
contribution to specific military objectives, but, rather, as 
contributing to broad foreign policy goals.
    USAID has been involved in the operational planning for 
AFRICOM from the beginning. In November 2006, we sent staff to 
participate on the implementing planning teams which developed 
the initial conceptual framework for AFRICOM. We have also 
participated in the AFRICOM Transition Team since February 
2007, when it was established at headquarters, U.S. European 
Command, in Stuttgart, Germany.
    USAID has two full-time staff people there today, 
representing both the Bureau for Democracy, Conflict, and 
Humanitarian Assistance and the Bureau for Africa. They are 
intimately involved in all the operational details required to 
help AFRICOM achieve initial operating capability on time. In 
addition to the collaboration in Stuttgart, here in Washington 
we are in close and continual consultations with our colleagues 
at the Departments of State and Defense that have 
responsibility for AFRICOM.
    We envision that USAID will play a constructive role in the 
structure and operations of AFRICOM when the command becomes 
operational. As a first step, we intend to send a senior 
development advisor to AFRICOM to help the commander make 
strategic choices with regard to development issues within his 
area of responsibility. The SDA will be a senior Foreign 
Service officer with extensive experience in USAID development 
work. The person will most likely have previously served as a 
mission director, and will bring to AFRICOM command group the 
invaluable perspective of an experienced development 
professional with significant African experience.
    There are other opportunities for us to participate in the 
structure and the operations of AFRICOM. There are a number of 
leadership positions within the proposed organizational 
structure which are currently under development. At the moment, 
it is premature to say which, if any, would be appropriately 
staffed by USAID personnel. However, we will continue to work 
on the evolution of AFRICOM's structure to determine which 
positions might best be served by the expertise that USAID has 
to offer.
    The most important resource that USAID will contribute to 
AFRICOM will be our people. USAID staff members have hundreds 
of years of experience engaging in humanitarian and development 
work in Africa. This accumulated wisdom will be of enormous 
benefit to the command as it performs its mission of supporting 
the interagency efforts of the U.S. Government to assist local 
populations and deter extremism on the continent.
    We do not envision transferring any funds to the Department 
of Defense for the conduct of its civilian assistance 
activities. We will work to ensure that USAID's and AFRICOM's 
programs are coordinated to avoid duplication of effort and use 
our resources effectively.
    USAID is a proud partner with our colleagues from the State 
Department and the Department of Defense in the creation of 
AFRICOM. As AFRICOM develops, we will continue to collaborate 
with our colleagues in the Government and work closely with our 
NGO partners to ensure that any concerns they may have are 
addressed.
    Thank you very much for your time today. I look forward to 
keeping Congress informed regarding our involvement in AFRICOM, 
and would be pleased to answer any of your questions.
    [The prepared statement of Mr. Hess follows:]

 Prepared Statement of Hon. Michael E. Hess, Assistant Administrator, 
   Bureau for Democracy, Conflict, and Humanitarian Assistance, U.S. 
          Agency for International Development, Washington, DC

                              introduction
    Mr. Chairman, and distinguished members of the subcommittee, it is 
an honor to appear before you today to discuss USAID's involvement in 
the establishment of the United States Africa Command, or AFRICOM. We 
believe that AFRICOM can significantly advance the ``Three D'' concept, 
and facilitate the coordination of defense, diplomacy, and development 
to advance American foreign policy interests on the continent of 
Africa.
    In the course of my testimony today, I will address USAID's role in 
the development of AFRICOM by outlining four important issues:

  <bullet> Summary of USAID's cooperation with the U.S. military;
  <bullet> USAID's participation in the initial planning for AFRICOM;
  <bullet> USAID's intended role in AFRICOM after it reaches Initial 
        Operating Capability (IOC) on October 1, 2007; and
  <bullet> Resources that USAID will continue to contribute to AFRICOM 
        after it achieves Full Operating Capability (FOC) on October 1, 
        2008.
                  usaid and civil-military cooperation
    Since the passage of the Foreign Assistance Act of 1961, USAID has 
been the principal U.S. Government agency providing assistance to 
countries recovering from disasters, trying to escape poverty, and 
engaging in democratic reforms. With regard to our disaster assistance 
and development portfolios, we have had many occasions to cooperate 
with the military over the years.
    Our most obvious collaborations have been in the area of emergency 
humanitarian assistance. When the magnitude of a natural disaster 
overwhelms our normal response mechanisms, we have successfully 
enlisted the aid of our military partners to meet the needs of 
civilians at risk. During the 2004 Asian Tsunami crisis, for example, 
USAID Disaster Assistance Response Teams (known as DARTs) worked 
closely with U.S. Navy units from Combined Support Force 536 to deliver 
relief supplies and potable water to affected areas. Similarly, DARTs 
collaborated with U.S. military units in 2005 in the aftermath of the 
Pakistan earthquake to identify isolated populations in stricken areas, 
evacuate victims for medical treatment, and set up emergency shelters 
to protect survivors against the harsh winter elements. As recently as 
December 2006, USAID worked with aviation assets from the Combined 
Joint Task Force-Horn of Africa (CJTF-HOA) in Djibouti to air drop 
supplies to the Somali refugee camps in northeastern Kenya which had 
been cut off from overland routes by extensive flooding.
    USAID also has extensive experience working with the military to 
meet the humanitarian and economic needs of civilian populations 
affected by armed conflict. During Operation PROVIDE COMFORT in 1991, 
our DARTs worked closely with the U.S. Army to facilitate the safe 
return of Kurdish civilians who had fled into the Zargos Mountains to 
escape attacks from Saddam Hussein's genocidal forces. I should note 
that as a U.S. Army Civil Affairs lieutenant colonel working in 
northern Iraq at the time, PROVIDE COMFORT was my first operational 
experience with USAID's humanitarian assistance work. The Provincial 
Reconstruction Teams (PRTs) operating in Afghanistan and Iraq offer the 
most integrated model of USAID-U.S. military collaboration to date. In 
both countries, USAID staff work closely with personnel from the U.S. 
military and a variety of other U.S. Government agencies to provide 
essential services to local populations in support of our national 
security objectives.
    Beyond humanitarian assistance in response to natural disasters and 
armed conflicts, USAID also has experience collaborating with the 
military in peacetime civic action projects. For example, USAID 
missions have worked with U.S. military units performing medical, 
dental, and veterinary missions for civilian populations in Latin 
America and Africa, most recently in Kenya and Uganda. In addition, 
USAID missions in Djibouti, Ethiopia, and Kenya have worked on 
educational projects with CJTF-HOA in which the military builds or 
refurbishes school buildings and USAID furnishes school books and 
supports teacher training.
    This long record of collaboration with the military across 
countries and across contexts suggests that the cooperative 
relationship that is envisioned by AFRICOM is not entirely new. USAID 
has learned that the military's logistical capabilities can be 
invaluable assets in emergency humanitarian assistance. Likewise, we 
have demonstrated that USAID's unique skills in addressing a range of 
essential human needs for civilian populations in both peace and war is 
of substantial strategic benefit to the foreign policy of the United 
States. Thus, USAID's coordination with the military's civic action 
programs can lead to important synergies of effort, resources and 
expertise for the benefit of our beneficiaries and in support of our 
interests.
    Yet experience has also taught us of the importance of maintaining 
the essential humanitarian and development character of USAID when we 
work with the military. While we represent the same government as our 
military colleagues, the methods by which we work and the sectors in 
which we work are quite different. Preserving the development and 
humanitarian role of USAID, even as we work closely with the military 
in the field, is vital to the successful operation of our programs, to 
the preservation of our partnerships with nongovernmental 
organizations, and to our credibility in the eyes of our beneficiaries. 
In large part this will be ensured by AFRICOM's focus on the security 
sector, while supporting USAID in mutually agreed upon activities.
    We remain ever mindful of our humanitarian principles and 
development principles as we contribute to the development of AFRICOM. 
We also remain mindful that the increasing presence and role of the 
Department of Defense in Africa provides opportunities and challenges. 
DOD can support national security objectives in ways that USAID cannot. 
DOD can help professionalize African militaries; strengthen the African 
regional security architecture, including African Standby Force; 
mitigate HIV/AIDS and other public health threats in the security 
sector; and provide disaster response capacity if others cannot. USAID 
participation in such efforts seeks to maximize effectiveness in ways 
that broadly support development and humanitarian objectives.
    Although there has been increasing recognition of development as 
part of the national security strategy, growing DOD presence in Africa 
has the potential of blurring the lines between diplomacy, defense, and 
development. These lines were never perfect. Increasing levels of DOD 
programming in Africa puts it in closer proximity to USAID programs. 
Some of these DOD activities include wells, schools, clinics, and 
veterinarian services. The result can be confusion and misperceptions. 
USAID coordination with the DOD should not be perceived as contributing 
to specific military objectives, but rather as contributing to broader 
foreign policy goals.
                 usaid and initial planning for africom
    USAID has been involved in the operational planning for AFRICOM 
from the beginning. In November 2006 we sent staff to participate in 
the Implementation Planning Team which developed the initial conceptual 
framework for AFRICOM. We have also participated in the AFRICOM 
Transition Team (TT) since February 2007 when it was established at the 
headquarters for U.S. European Command (EUCOM) in Stuttgart, Germany. 
USAID has two full-time staff people there, representing both the 
Bureau for Democracy, Conflict and Humanitarian Assistance, which I 
lead, and the Bureau for Africa. They are intimately involved in all of 
the operational details required to help AFRICOM achieve IOC on time, 
including the shape of the command structure, outreach, staffing 
patterns, and legal authorities among others issues. In addition to the 
collaboration in Stuttgart, here in Washington we are in close and 
continual consultations with our colleagues at the Departments of State 
and Defense that have responsibility for AFRICOM.
                    usaid's role in africom post-ioc
    We envision that USAID will play a constructive role in the 
structure and operations of AFRICOM when the command becomes 
operational. USAID currently has over $3 billion of programs across the 
continent planned this fiscal year alone, making it a U.S. Government 
agency with one of the largest financial commitment to Africa. Given 
AFRICOM's mission to support other agencies in implementing U.S. 
security policies and strategies on the continent, we expect that there 
will be many areas in which we might usefully collaborate.
    As a first step, we intend to send a Senior Development Advisor 
(SDA) to AFRICOM to help the Commander make strategic choices with 
regard to development issues within his AOR. Modeled after Political 
Advisors, or POLADs, which the State Department sends to each of the 
geographic combatant commands, the SDA will be a senior Foreign Service 
officer with extensive experience in USAID development work. The person 
will most likely have previously served as a mission director at least 
once, and will bring to the command group of AFRICOM the invaluable 
perspective of an experienced development professional with significant 
Africa experience. I should note that USAID already has SDAs at two 
combatant commands, EUCOM and the U.S. Special Operations Command 
(SOCOM), and we are committed to sending SDAs to each of the geographic 
combatant commands.
    We believe that there may be other opportunities for us to 
participate in the structure and operations of AFRICOM. There are a 
number of leadership positions within the proposed organizational 
structure which are currently under development. At the moment, it is 
premature to say which, if any, would be appropriately staffed by USAID 
personnel. However, we will continue to observe the evolution of the 
AFRICOM's structure to determine which positions might best be served 
by the expertise that USAID has to offer.
                      usaid resources for africom
    The most important resource that USAID will contribute to AFRICOM 
will be our people. USAID staff members have hundreds of years of 
experience engaging in humanitarian and development work in Africa. 
This accumulated wisdom will be of enormous benefit to the command as 
it performs its mission of supporting the interagency efforts of the 
U.S. Government to assist local populations and deter extremism on the 
continent. To this end, USAID is committed to providing staff for the 
position I mentioned above. We will also consider providing additional 
staff for the AFRICOM headquarters as requested. Finally, we will work 
to ensure that AFRICOM's activities are closely coordinated with USAID 
programs managed by our missions across the continent.
    We do not envision transferring any funds to the Department of 
Defense for the conduct of its civilian assistance activities. We will, 
however, work to ensure that our programmatic expenditures are 
coordinated with those of AFRICOM to avoid needless overlap or mutually 
exclusive activities.
                               conclusion
    USAID is a proud partner with our colleagues in the State 
Department and the Pentagon in the creation of AFRICOM. It will be a 
substantial step in our effort to integrate further the elements of 
defense, diplomacy, and development in the execution of our foreign 
policy. In my judgment, it will also represent an improvement in the 
delivery of services to our beneficiaries by greater synergies in the 
distribution of U.S. Government resources across Africa.
    As AFRICOM continues to develop, we will continue to collaborate 
with our colleagues in the government and will work closely with our 
NGO partners to ensure that any concerns they may have are addressed.
    Thank you very much for your time today. I look forward to keeping 
Congress informed regarding our involvement in AFRICOM, and I would be 
pleased to answer any questions you may have.

    Senator Feingold. Thank you all.
    We'll begin with 7-minute rounds. There is a vote 
anticipated at around 10:30, so ideally we'll all get a round 
in, and then take a brief recess before we start panel 2.
    Let me begin with you, Secretary Frazer. I presume that the 
administration is saying the same things about AFRICOM to our 
friends in Africa and elsewhere that this subcommittee just 
heard from this panel. Could you give me a sense of what 
responses you've received from African political and military 
leaders?
    Ambassador Frazer. I can, but I would also turn to my 
colleague from DOD who has been on the tours. But, in my visits 
with African officials, they've had questions about ``Why?'' 
``Why now?'' And we've answered that it's consistent with the 
significant engagement of the Bush administration, that it has 
been a long time in coming. As an academic over the last 
decade, I've called for bringing Africa under a single command, 
so it's not a new idea. And we've also responded that there is 
a clear need. Many African countries are participating in 
peacekeeping across the continent and globally. There is 
clearly a threat of extremism across the Sahel, down the 
eastern coast of Africa. And the move toward democratization 
also involves professionalization of the militaries. We've had 
six wars that have ended, so that obviously there is a need for 
security sector reform and post-conflict reconstruction.
    So, we've gotten mainly, ``Why now?'' and ``What will the 
mission of this AFRICOM be?'' And, as Ms. Whelan said, 
questions about ``Is it to compete with other regional or 
global powers, like China?'' Obviously, we've answered that. It 
has no intention of trying to compete with anyone else, and 
that it is, in fact, to rationalize our engagement with Africa 
under one command, rather than under three separate ones.
    Senator Feingold. If you characterized the tone of the 
responses from the African countries' leaders, would it be 
excited, nervous, wary? How would you describe it?
    Ambassador Frazer. Largely positive. Some extremely 
positive, very interested in having their countries be the area 
where headquarters would be located. I would characterize a 
minority as not positive. I would say, maybe, one in the not-
positive category. And I would characterize a few as wary.
    Senator Feingold. OK.
    Secretary, one of the goals of the new command is to 
enhance the security services of African nations. In its 
relations with foreign militaries, the United States often 
faces the dilemma of whether to support a military regime that 
may enhance stability in the short term, but, of course, 
potentially undermine stability in long run by compromising 
democratic institutions and popular support. As the United 
States enhances its military-to-military relations on the 
African Continent, are you prepared to make short-term 
tradeoffs to support long-term security?
    Ambassador Frazer. Well, we've had this issue come before 
us with Mauritania, which had a coup d'etat, but yet was an 
extremely important partner to us in pushing back extremism in 
our efforts to counter terrorism. And we, in fact, cut off the 
majority of our security cooperation with the Mauritanian 
Government until it returned to democracy. And we think that a 
democratic government, a legitimate government, is most 
important for long-term stability. And so, I think the 
interagency has already faced a scenario that you're 
describing, and we've made a judgment that is for long-term 
stability.
    Senator Feingold. Thank you, Secretary.
    Ms. Whelan, could you outline for me the basic parameters 
of when and where the United States can use lethal force in 
noncombatant zones? Do such operations require prior 
Presidential approval? Do they require the signoff of the 
relevant ambassador?
    Ms. Whelan. Thank you, Senator.
    Yes; the United States, prior to use of lethal force, or 
actually force of any kind in a noncombatant zone, requires an 
execute order that has been authorized by the President, and it 
is also coordinated with the ambassador, either, if it is in a 
specific country, in that country, or, if it cuts across 
regional lines, with the ambassadors in the region.
    Senator Feingold. Coordinated or signed off?
    Ms. Whelan. In an execute order provided to a combatant 
commander, the President signs off on that execute order 
through the national command authority chain of command, but 
the ambassador is involved in that process, vis-a-vis the State 
Department, and also, on the ground, the ambassador is kept 
informed.
    Senator Feingold. So, no separate signoff from the 
ambassador.
    Ms. Whelan. That's correct, Senator.
    Senator Feingold. On the issue of civil-military balance, 
Secretary Whelan, Navy Rear Admiral Robert Moeller, executive 
director of the U.S. Africa Command Implementation Planning 
Team said, recently in an interview, that AFRICOM will focus 
mainly on humanitarian assistance, disaster relief and crisis 
response missions. How will you ensure that AFRICOM maintains a 
balance in its civil-military duties and does not override the 
existing structures that are set up for this purpose such as 
those in the USAID's Office of Foreign Disaster Assistance?
    Ms. Whelan. AFRICOM's intent is to be a supporting element 
of the United States foreign policy structure in Africa, not a 
supported structure. So, AFRICOM will respond to the 
requirements identified by the U.S. Government, by the U.S. 
State Department, in terms of humanitarian needs or responses 
to disaster relief and those sorts of missions. AFRICOM will 
not be initiating any missions or any activities that have not 
been previously coordinated with, and approved by, the State 
Department in a noncombat context. Traditional lines of 
authority will not change, nor will the presence of interagency 
personnel in AFRICOM dilute or undermine the independence of 
their home agencies. None of those command authorities are 
going to be changing.
    Senator Feingold. Thank you.
    Mr. Hess, in your opinion, is there a risk that U.S. 
military counterterrorism operations and programs could 
conflict with the security and stability operations assistance 
components in AFRICOM's mandate? And, if so, how would you 
address that risk?
    Mr. Hess. There is always the possibility that they could 
conflict with it, and that's why it's important to have a good 
coordination mechanism, like AFRICOM, to ensure that we have a 
unified approach on how we conduct these operations. And I 
think we've worked very closely. We have some good examples on 
the Trans-Sahel counterterrorism program, where all three 
agencies have worked very closely together to ensure that we 
don't cross those lines. If we don't know those coordination 
mechanisms, and we don't have those conversations, then there 
is that potential. But I think the cooperation is there. We're 
working very closely on that.
    Senator Feingold. Thank you very much.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I want to follow up on many of the questions the chairman 
asked, but just to try to weigh--once again, how the State 
Department, USAID, have weighed in, in the discussion of the 
Combatant Command. And Ms. Whelan has mentioned specific chain 
of command there, with the President signing off, and the 
military then proceeding. But let me just raise a very 
practical question. We've had testimony before this committee 
on Sudan and Darfur. Many very, very able people, some with 
experience in the administration now, some in previous 
administrations. Now, I was struck by the fact that, by the 
time the hearing was over, some of our witnesses were 
advocating United States military action in Sudan. They were 
discussing, specifically, bombing of airports, the disruption 
of aircraft, a good number of aspects, and they gave the 
feeling that, after all, nothing short of U.S. military force 
was likely to make a difference.
    I took the occasion, in my opening statement, to compliment 
the United Nations on the African Command that has been 
proposed, because I think that's very important. But these are 
not hypothetical situations. Even as AFRICOM is being worked 
out, we have conflicts on the ground, presently, in which there 
are distinguished Americans with very strong points of view. 
This is why I get back, fundamentally to the question, Where 
does the Secretary of State fit into this? In other words, 
before we begin getting into combatant operations or 
antiterrorism operations or any other way in which the 
Combatant Command is involved, is the Secretary of State the 
major influence, or those who are such as yourselves, who are 
somehow involved in the chain of command with her? Can you, 
Secretary Frazer, enlighten me further about the consideration, 
the arguments, the debate, about what is proceeding as this 
very important new organization is founded?
    Ambassador Frazer. Thank you, Senator Lugar.
    I think that in any of these areas of conflict and policy 
considerations, the Secretary of State has the primary lead as 
the President's foreign policy advisor. And most of these 
discussions, practically, take place at the PCC, the Policy 
Coordination Committee, and the DC and the Principals 
Committee, with all of the agencies sitting around the table. 
And so, before any significant, major policy decision would be 
made on what the military engagement would be in a place like 
Sudan, we're sitting there looking at all of our options, and 
the Secretary is right at that table, deciding--obviously 
looking at the range of foreign policy tools, whether it's 
Treasury and whether it would be more effective to pressure the 
government using Treasury, how our diplomacy can be 
coordinated, and certainly if there are any areas in which the 
military can be of benefit, for instance, NATO airlifting in 
the African Union forces, rotating them in. I think it is a 
coordinated policy process, and I would expect the same in all 
areas of conflict, whether it's Somalia or any future conflicts 
that we might see in the Sahel--there would be an interagency 
process, with the Secretary as the lead.
    I haven't felt that there's been any weakening of State 
Department's position as the primary foreign policy actor.
    Senator Lugar. Would you agree that this planning on our 
part, in the formation of this, ought to be made as explicitly 
clear as possible to all the African nations so that they have 
some idea of what our debate, what our arguments, what our 
resolutions have been? I ask this, because you have assured us 
that, generally, African countries have expressed opinions 
about this development, and have been positive, maybe a 
negative here or there. My own, sort of, reading of the 
literature on this is somewhat less sanguine. I feel that a 
good number of African countries, without having the briefing 
we're having today, or maybe the briefings that you and the 
ambassador can give them, are less happy about the whole 
prospect; although understanding that the United States is a 
world superpower, and that we go wherever we want. But in order 
for this to be welcomed as a command that really does offer 
potential humanitarian resources, cohesion, stability, which is 
our intent as you have described, the approach of this really 
is very, very important. I know you know all of this, but we 
take this hearing to try to emphasize it.
    Now, I just wanted to follow through with one more aspect, 
because we've also had hearings in this committee with regard 
to other continents and the role of our ambassadors in various 
countries. These issues are not new to you, but staff members 
from this committee have visited several embassies and have 
issued a formal published report about their findings, in which 
we found that our ambassadors sometimes were, not the last to 
know about Department of Defense activities in their countries, 
but, at the same time, it was almost an afterthought. Those 
involved in the activities felt that the pursuit of terrorists, 
or whatever might be involved, was so critical, so timely, 
that, in due course, they might inform the embassy and the 
ambassador, but, first things first. And sometimes, large 
contingents of Americans were in countries without the 
knowledge of our ambassadors, or certainly the participation of 
those persons in any such ideas.
    Now, I think that has been mitigated by the kind of 
hearings we've had here, and the report of our staffs and so 
forth. But this is a reason to raise it at the outset here, 
because, in fact, events do happen, and if there is not a 
general policy that our State Department and our ambassadors 
are involved, really, from the outset, then I fear we're going 
to be back to square one again, sending staff members down to 
interview the ambassadors. Do you have any comment about this 
issue?
    Ambassador Frazer. Yes, Senator. I agree with you. We 
absolutely believe that the chief of mission will continue to 
have that authority and should exercise that authority as well. 
We're hoping that by placing military liaison elements within 
the embassies, it will help to assist with the coordination. I 
suspect, in those cases, having served as an ambassador, where 
someone's in-country without the knowledge of the ambassador, 
that somebody at that embassy knew they were in-country, and 
didn't inform the ambassador--somebody that was part of their 
country team, because I don't think that our military's just 
running around the continent without the clearances. And so, 
it's a matter of making sure that our coordination is 
effective, and that those country teams are communicating with 
the ambassador, the chief of mission.
    But I take your point. There's a bigger structural point, 
which is that State Department doesn't have the resources and 
the personnel that our DOD colleagues have. That, I think, is a 
more fundamental structural issue. But, in terms of 
coordination and collaboration, I think that we have the 
authorities necessary.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Lugar.
    I just feel compelled to put on the record that the 
conversations we've had have indicated a more negative response 
from the African countries on AFRICOM. Obviously, you've had 
your conversations, others have had theirs, but this is 
something that we need to continue to explore and examine.
    I want to welcome Senator Nelson, who's been very involved 
on this subcommittee. And he's kind enough to defer to Senator 
Webb for his questions.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Frazer, I assume this question would be for you, 
but, if not, whoever would be most appropriate to answer it. 
Could you give us a better idea of the decisional process 
through which we're going to figure out where this command is 
going to be headquartered?
    Ambassador Frazer. Yes; I can. I would also turn to my 
colleague, Theresa Whelan, to answer the question as well.
    Certainly, there's a planning team, right now, making 
recommendations. And I know that the Deputy Secretary of 
Defense and the Secretary of Defense are in informal 
conversations throughout this process with Deputy Secretary 
Negroponte and Secretary Rice. And so, I think there's already 
been informal discussion between the agencies.
    Senator Webb. How about among other countries in Africa?
    Ambassador Frazer. There are certain countries that have 
made it known that they would like AFRICOM to be based in their 
countries.
    Senator Webb. Are you free to share that information with 
us?
    Ambassador Frazer. Well, I could certainly share one 
because the President of the country wrote an op-ed in the 
newspaper. President Ellen Johnson Sirleaf has certainly asked 
that AFRICOM be headquartered in Liberia. Others, I would be 
more discrete about at this point. There is a planning process, 
with criteria, looking at it, and that's where I think Theresa 
Whelan might be better able to answer the question.
    Ms. Whelan. Senator, we have gone through a very deliberate 
planning process to narrow down potential sites, and we have 
also, of course, included the fact that there are several 
countries that have actually issued explicit invitations. 
Despite reports in the press, we have not held discussions, or 
even raised the issue of location, with any of the countries 
that we have talked to bilaterally, or even in any multilateral 
fora.
    We have a site selection criteria that we developed, in 
coordination with the Department of State. The transition team 
has used that criteria to narrow down potential sites. And 
those potential sites have been briefed to the Department of 
State informally, and we've begun an informal dialogue on the 
pluses and minuses of those sites, based on the initial cut. 
They will be briefed to the Secretary of Defense on the eighth 
of August, and we will continue the dialogue with Department of 
State to determine how we want to move forward, in terms of 
selecting the location or the country that we would wish to 
approach first.
    Senator Webb. This is going to be among the list that has 
already indicated they would be amenable to this, I assume. 
It's not like going forward with an offer. This is more like 
going forward with an acceptance, should we say?
    Ms. Whelan. In some cases. I mean, some of the potential 
sites that have been identified are commensurate with countries 
that have indicated a specific interest. We are certainly not 
interested in going someplace, or even attempting to go 
someplace, where we are clearly not wanted. So, any country 
that has either publicly or privately indicated that they would 
not be interested, able, capable, or whatever, or hosting a 
staff element of AFRICOM would not be considered.
    Senator Webb. But there may be others that could be 
approached that haven't, at this point, said they would be 
amenable? Is that----
    Ms. Whelan. That's correct.
    Senator Webb. All right. Now, does the establishment of 
this command, is it anticipated that it is going to affect the 
nature, the size, or the operational parameters of the United 
States military in Africa?
    Ms. Whelan. Yes; it will obviously affect the size of the 
United States military presence in Africa. Currently, our 
military presence is limited to our forward operating site in 
Djibouti, CJTF-HOA, which is roughly 1,500 U.S. military 
members.
    Senator Webb. So, are we anticipating that we will be in 
Africa, in an operational sense, as a result of the 
establishment of this command?
    Ms. Whelan. No, sir, we are anticipating that we will have 
staff elements present on the continent, but we will not have 
operational elements. And we have made very clear, to many 
African countries who have asked the question, that we have no 
intention of basing any troops or military forces on the 
continent. The only presence would be headquarters staff 
personnel.
    Senator Webb. How about in a strengthening of bilateral 
military ties that would foresee operational exercises, as, for 
instance, we do in Thailand with Cobra Gold?
    Ms. Whelan. Well, we currently conduct a number of 
exercises on the continent, and have for a number of years, 
including our small Joint Combined Exchange Training, JCET, 
exercises, using 12-man teams to conduct training in various 
nations.
    Senator Webb. Right. Well, would you foresee an expansion 
of those sorts of activities as a result of the creation of 
this command?
    Ms. Whelan. I would anticipate that there would probably be 
an increase in the amount of exercises we conduct, and other 
types of military-to-military cooperation activity, because we 
would have a command focused on Africa.
    Senator Webb. Are there countries that would be high on the 
list in Africa right now, in terms of that sort of potential 
cooperation?
    Ms. Whelan. I think all of our current mil-to-mil partners 
would be potential partners for potentially increased mil-to-
mil cooperation.
    Senator Webb. So, is there a country that you would say--or 
a couple of countries--that you would say, in the future, would 
be our strongest supporters and allies as a result of the 
creation of the command?
    Ms. Whelan. In terms of the creation of the command, there 
are clearly countries out there, as Assistant Secretary Frazer 
said, that are very forward-leaning and very supportive, and we 
expect them to continue to be in that position.
    Senator Webb. Who would be among those?
    Ms. Whelan. Well, Secretary Frazer mentioned, of course, 
Liberia. President Ellen Johnson Sirleaf has been very vocal. 
Other countries that have been positive are some of our long-
term military partners that we have had military relationships 
with for decades now. Countries like Botswana, Senegal have 
been very supportive, and Djibouti has been very supportive. We 
anticipate those countries to continue to be supportive of our 
military-to-military relationships. We have other relationships 
throughout the continent that we expect to maintain, and 
hopefully have the opportunity to strengthen and deepen, as we 
will have a four-star commander focused on the continent, and 
not distracted by issues going on in Europe or the Middle East 
or Asia.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    Senator Nelson.
    Senator Bill Nelson. By the way, Ms. Frazer, what did the 
President of Liberia say in the op-ed, that they wanted it in 
Liberia?
    Ambassador Frazer. The President has made known that she 
feels that there's a special relationship between the United 
States and Liberia, that she wants to deepen that relationship. 
She acknowledged the role that our diplomats and Marines played 
in ending the 14-year civil war in Liberia. And she also sees 
the positive benefits, from a development perspective, that 
would come to Liberia if AFRICOM was headquartered there.
    Senator Bill Nelson. Ms. Whelan, I've been to a lot of the 
combatant commanders' headquarters, and I'd like to know: What 
is your thinking of how AFRICOM's interagency coordination 
process is going to be different from the existing Combatant 
Commands?
    Ms. Whelan. We think that the interagency coordination 
process will be different, partly because Africa Command will 
have the benefit of having interagency knowledge and expertise 
embedded in the command. It will not have authority, but the 
people that we hope will be detailed to the command, on a 
reimbursable basis from the interagency, will be provide the 
command the expertise to understand the issue areas in which 
coordination in advanced planning and cooperation are required. 
So, we hope that this will improve the level of coordination in 
an operational level with the interagency counterparts in 
Africa.
    At the strategic level in Washington, the interagency 
coordination will continue, as it has, through the interagency 
process, through PCCs, DCs, et cetera. But, at the operational 
level, we hope that having people with this knowledge embedded 
in AFRICOM will facilitate greater interaction and 
communication and transparency.
    Senator Bill Nelson. Isn't that pretty much what Admiral 
Stavridis does in U.S. Southern Command now?
    Ms. Whelan. Admiral Stavridis is actually moving in that 
direction. In fact, U.S. Southern Command has been involved in 
some of the discussions we've had on Africa Command, and on 
where we want to go with Africa Command, in terms of 
integrating the interagency. Currently, U.S. South Command is 
using a J-9 concept to integrate the interagency--essentially a 
through component of the command that sits separately from, but 
is part of, the SOUTHCOM structure. The difference within 
AFRICOM is that, while there will be a component of the command 
responsible for managing what we call outreach and interface, 
the members of the interagency will not simply be confined to 
that part of the command, but they will be working, not as 
liaison officers, but as staff personnel within and throughout 
all other parts of the command. The depth of integration is 
what is different than the current SOUTHCOM plan that Admiral 
Stavridis is working. But Admiral Stavridis is very interested 
in what we're doing in Africa Command. And if that proves to be 
effective, it may be exported to some of the other commands.
    Senator Bill Nelson. Would you consider doing the two 
simultaneously?
    Ms. Whelan. I'm sorry, Senator, ``the two simultaneously''?
    Senator Bill Nelson. Yes. You're setting up Africa Command 
with this concept. Stavridis is moving in that direction. So, 
you do both commands the same.
    Ms. Whelan. Well, sir, I can't quite speak to SOUTHCOM. 
It's not my area. It certainly, I suppose, would be possible, 
if Admiral Stavridis were so inclined to move that direction. I 
think the challenge for Admiral Stavridis is, he has an 
existing command organizational architecture that he has to 
work within and change. We have a bit of an advantage on the 
Africa Command side, because we are starting from zero, and we 
are in the process of building--an organizational architecture 
that is somewhat new and different than the traditional J-code 
structure that Admiral Stavridis has inherited.
    Senator Bill Nelson. How do you envision this new African 
Command taking on certain subjects that are peculiar to that 
particular command, for example, child soldiers or countering 
the role of civil militias. What are you going to do about that 
in Africa Command?
    Ms. Whelan. I think our hope would be that, as Africa 
Command allows us to work more closely in a more sustained and 
focused manner with our African partners on building up their 
capacity to deal with security challenges that they face, that 
issues of militia forces popping up in countries, because, 
essentially, there is no competent security force to be able to 
deal with them, will be mitigated. Child soldiers are usually 
recruited by these popup militias, as their instant armies. We 
aim to help create capacity for individual countries to manage 
their security appropriately and, especially, professionally. 
This is one of the problems we've had, certainly, in many 
internal conflicts in Africa, the failure of African forces to 
behave professionally, and therefore, they exacerbate the 
problem, as opposed to helping solve the problem. But if our 
capacity-building can lead to more professional security 
responses, we believe that the problems of civil militias and/
or recruitment of child soldiers will actually be mitigated 
over time.
    Senator Bill Nelson. Well, I'd like you to respond further, 
reflect on that question, and see if you can give me a little 
more definitive answer of the peculiarities of the African 
Command. How would you, in the setting up of this new command, 
identify and then, through this multiagency coordination, 
approach problems that are peculiar to that command?
    Senator Bill Nelson. I know we have a vote, Mr. Chairman.
    Senator Feingold. Well, thank you, Senator.
    We're in the middle of the first of two votes, so we will 
briefly recess. I'll get back as fast as I can, and we will 
begin the second panel.
    [Recess.]
    Senator Feingold. I call the committee back to order. We, 
as always, apologize for the unpredictability of the Senate 
schedule. I'm sorry you had to wait that long.
    Our second panel features individuals who are extremely 
well qualified to speak on the unique challenges of 
establishing an Africa Command, and the potential obstacles and 
impact such a command may have both on the continent itself and 
within the broader security realm. We are privileged to welcome 
back Dr. Steve Morrison, the executive director of the Center 
for Strategic and International Studies' Africa Program. We've 
asked Dr. Morrison to speak to AFRICOM related developments 
within the broader security realm, and we hope he'll articulate 
the challenges and requirements that need to be addressed for 
effective planning and implementation.
    Mr. Mark Malan is the peace-building program officer with 
Refugees International where he conducts advocacy regarding 
international peacekeeping efforts and provides leadership for 
the Partnership for Effective Peacekeeping. He's one of the 
leading experts in the world on peacebuilding in Africa, and 
we've asked him specifically to address the humanitarian 
aspects of this command as well as the impact on regional and 
local capacity.
    Finally, we have MG Jonathan Gration, the former director, 
strategy, policy, and assessments, at U.S. European Command. In 
this capacity, he was responsible for formulation and staff 
direction of the execution of basic military and political 
policy, as well as planning for command activities involving 
relations with other U.S. unified commands, allied military, 
and international military organizations, and subordinate 
commands. We've asked him to speak on how AFRICOM fits into the 
broader security perspective, and, based on his military 
experience, how this unique command can be stood up and 
deployed.
    So, thank you all for being here, and again for your 
patience. We'll begin with Dr. Morrison.

 STATEMENT OF DR. J. STEPHEN MORRISON, EXECUTIVE DIRECTOR, HIV/
   AIDS TASK FORCE AND DIRECTOR, AFRICA PROGRAM, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Morrison. Senator Feingold, thank you so much for the 
opportunity to be here today to speak on this important 
subject, and thank you for your leadership on these matters.
    I will offer some brief introductory comments and ask that 
my testimony be submitted into the record.
    I do know that General Ward's nomination, now, to become 
the first commander in chief is an active matter before the 
Senate. I think the absence of an empowered senior AFRICOM 
leader has been a big constraint in this last period, and I 
think--as we look forward in the future, I think, once he is in 
place, his leadership and his ability to clarify a mandate for 
AFRICOM, and to bring across a better vision and better form of 
communication, will bring us forward from where we are today.
    I do believe that, as we look at AFRICOM and standing it up 
over the next couple of years, it's going to be--it will remain 
difficult. It will require a sustained effort over several 
years.
    There is strong fear and apprehension within Africa, within 
the United States, in Europe, and elsewhere, that AFRICOM 
signals the militarization of United States engagement in 
Africa, at the expense of developmental and diplomatic 
interests. The legitimacy and sustainability and credibility of 
AFRICOM is something that's going to have to be earned, I 
believe, in moving against that skepticism, and that's going to 
require a much-improved strategic communications by AFRICOM, a 
high-level reaffirmation of what the mandate is, and how the 
interagency will work, and how the civil and military relations 
will be linked.
    The opinion climate within Africa, at this point, about 
AFRICOM, is very mixed and very delicate. It's something that's 
going to have to be managed very deftly in this next phase. 
Part of what is needed, in addition to a better effort at 
addressing the fears, the legitimate fears and apprehensions 
that exist within Africa, is to answer the question of, What is 
the value-added going to be, programmatically and materially, 
and in terms of the presence of AFRICOM? We know that the U.S. 
Government has slowly and quietly and incrementally put in 
place a number of security programs over the last few years 
that are quite promising, and that have built up partnerships 
in an ad hoc and scattered way around the continent, but these 
are partnerships that have not had to be defended in a very 
conspicuous and overt fashion against critics or skeptics in 
media or among opposition parties or NGOs or the like. We're 
now at a point of transition, where they have to begin to 
defend that, and they need greater assurance that, in fact, it 
will be truly a civilian-driven process, and that there will be 
significant payout, significant value-added, programmatically, 
in the presence in Africa. And, so far, that has not been 
defined.
    The other major point that I've tried to bring across here 
is that U.S. civilian agencies--State Department, USAID, most 
notably--have had, in the last decade, a significant decline, a 
hollowing out of their capacities. If you create a unified 
command within Africa, inevitably there will be fears and 
allegations that AFRICOM will dominate and be able to call the 
shots against the civilian leadership. We should not be blaming 
AFRICOM for that reality, the asymmetry that exists between our 
civilian and our security agencies. We should be--as we look 
forward, we should be putting much greater focus on: How are we 
going to make the State Department and the USAID policy 
leadership and programmatic implementation on Africa stronger, 
better-led, better-resourced, and better able to, sort of, 
carry forward its mission?
    I talked about the fact that there's been a steady 
proliferation of worthy U.S. security programs. This has been a 
low-key process. It's one that's quiet and incremental, and 
involves modest levels of funding, but are achieving very 
important results. We're now talking about shifting into very 
overt and potentially much higher levels of engagement, and 
we're also shifting in a moment in which you have active 
terrorist threats, particularly in north Africa and in the 
Horn, and you have active U.S. engagement in those areas.
    I do believe that the opinion climate in Africa in the last 
several months, partly triggered by the visits--the high-level 
visits to Africa, led by Deputy Secretary for Policy, Ryan 
Henry--that the critics in government and media have made 
significant headway in shaping the environment, in a negative 
fashion, about AFRICOM, and that this needs to be--this needs 
to be acknowledged, and a better strategic communications 
approach taken, that better address what the political risks 
and fears are of these--of the actors that we're looking for.
    The most recent Pew study of worldwide opinion does show 
that, in Africa, 8 of the top 10 countries that have held firm 
in their support for the United States are in Africa. I do 
believe that the investments made--PEPFAR, MCC, security 
assistance--that there is a stronger base, a disposition--a 
positive disposition. But, for all of the reasons that I've 
enumerated up to now, very skeptical media and NGO community, 
an ability to call upon the historical legacy of U.S. 
engagement, particularly in the cold war, which is seen as 
damaging and inconsistent and unsustained, and, now, the threat 
that you're going to see the importation of active 
counterterrorism operations. All of those factors play in the 
opinion climate and require a strong and very sophisticated 
support in order to build the partnerships and get the kinds of 
state buy-in from Africa that we require.
    We do not--we've heard no mention around China's role. 
China has--is actively normatively and operationally competing 
with us now in Africa. They are making big commitments on 
peacekeeping, including in Darfur. We've had no dialog or 
coordination effort with them. One thing that the Senate and 
others could do would be to try to reduce the constraints on 
having a dialog along security lines in Africa with the 
Chinese.
    Senator Feingold. Doctor, I'd ask you to summarize, at this 
point.
    Dr. Morrison. My final points are: AFRICOM needs to 
reaffirm its core values, clarify its mandate; the senior-level 
deputy from the State Department should be a very respected and 
known entity; we need to align our approach to those security 
threats that Africa leaders find most compelling; we need to 
systematically enlarge our programs now in order to make them 
marketable. I haven't talked at all about the maritime program; 
that's an area where there's considerably promise. And we need 
to multilateralize in tying the way that AFRICOM operates to 
U.N. peace operations, African Union, and the regional bodies. 
And we need to strengthen our civilian agencies, which are very 
weak, and which will remain weak unless there's a concentrated 
effort.
    Thank you so much.
    [The prepared statement of Dr. Morrison follows:]

Prepared Statement of Dr. J. Stephen Morrison, Executive Director, HIV/
AIDS Task Force and Director, Africa Program, Center for Strategic and 
                 International Studies, Washington, DC

                              introduction
    Senators Feingold and Sununu, I am grateful to you both for the 
opportunity to address the important and timely subject of AFRICOM and 
the United States emerging strategic relationship with Africa. I wish 
also to thank you for your leadership on these and other Africa policy 
matters.
    CSIS has taken a strong interest in AFRICOM over the past year, and 
had the good fortune to discuss AFRICOM's rationale and implementation 
plans with General Craddock in late 2006, as he was heading to 
Stuttgart to assume his duties as Commander in Chief of U. S. Forces 
Europe and Supreme Commander of NATO. In May of this year, CSIS also 
hosted General ``Kip'' Ward, EUCOM's Deputy Commander in Chief and the 
current nominee to be the first Commander in Chief of AFRICOM.
    Since the Command was first announced by President Bush on February 
6, 2007, the absence of an empowered senior AFRICOM leader has been a 
serious constraint and accounts in part for the often ineffective 
communication of AFRICOM's mandate and vision. Once General Ward is in 
place, his leadership will be an invaluable asset in moving AFRICOM 
forward.
    Achieving a successful launch of AFRICOM will not be easy or 
simple, and will take a determined, sustained effort over several 
years. Skeptics here in the United States, and in Africa and elsewhere 
abroad, will continue to raise tough issues that will have to be 
answered more effectively than has been the case up to now.
    Most significant will be overcoming the widespread fear that 
AFRICOM signals the militarization of U.S. engagement in Africa, at the 
expense of developmental and diplomatic interests.
    Achieving balance and legitimacy requires improved strategic 
communications by AFRICOM: High-level reaffirmation, backed by action, 
that AFRICOM is pursuing a genuinely balanced civil-military approach 
that is answerable to civilian U.S. policy oversight, that is 
responsive to African perceptions of which security threats matter 
most, and that cements support within Africa from a range of stable, 
well-governed states and their citizenry. At the end of the day, the 
test of AFRICOM's sustainability will be whether it establishes durable 
and mutually advantageous partnerships with African interests, both 
governmental and nongovernmental. Today it is not clear whether that 
condition will be met.
    Success also requires a detailed action plan that spells out in 
concrete terms what the value-added will be from creating a unified 
Africa command. Today, it is not clear whether the creation of this new 
entity will result in significant gains over existing U.S. security 
programs in Africa.
    Success, both at home and in Africa, also reaches beyond AFRICOM's 
vision, structure, and leadership. No less important, it requires 
getting serious about strengthening chronically weak U.S. civilian 
agencies, most importantly the State Department's Africa Bureau, 
USAID's Africa Bureau, and U.S. missions in Africa.
    AFRICOM aspires to be a new type of interagency command, which 
presumes a robust and functioning interagency process. For that to 
happen, however, requires a systematic effort to reverse the decline of 
the U.S. civilian agencies responsible for policies and programs in 
Africa: to make them better led, better staffed and resourced, and more 
coherently organized. For a very long time, the administration and 
Congress have been complacent, as U.S. Africa policy capacities have 
been steadily hollowed out.
    So long as the State Department and other civilian agencies are 
exceptionally weak, an emerging AFRICOM will inevitably be seen as 
domineering. AFRICOM should not be blamed for this phenomenon, and its 
progress should not be held back on account of weak civilian agencies. 
Rather, simultaneous action is needed on two fronts: To correct 
structural weaknesses in our civilian agencies, at the same time that 
priority is given to strengthening AFRICOM's strategic outreach and 
action plan.
    I will concentrate my remarks on three key issues: What is at stake 
for the United States in the creation of AFRICOM; the difficulties in 
selling AFRICOM internally within the U.S. Government and within 
Africa; and practical suggestions on the way forward from here.
1. AFRICOM is a potentially valuable instrument for advancing U.S. 
        global interests
    In the last decade, and especially in recent years, U.S. national 
interests in Africa have risen significantly.
    For a long time, we have recognized the importance to U.S. values 
and norms of responding to Africa's humanitarian needs and assisting in 
ending Africa's chronic conflicts and overcoming poverty. We have 
recognized how vital it is to support the continent's transition to 
multiparty democracies, greater respect for human liberties, improved 
management of national economies, stronger curbs on corruption, and 
greater integration of Africa into global markets.
    What is new in recent years is the rise of strategic interests that 
are global in nature.
    These include energy, where we today rely on West Africa for 
approximately 22 percent of U.S. oil imports, and where in the near 
future we will cross the 25-percent mark.
    They include counterterrorism, concentrated but not confined to the 
Horn of Africa and West Africa.
    And they include accelerated competition for influence with China 
and other Asian countries which have swiftly expanded their engagement 
in Africa.
    In line with these rising interests, we have seen a steady 
proliferation of worthy U.S. security programs in Africa, some 
traditional, other nontraditional. In an organic and ad hoc fashion, 
the United States has created multiple partnerships with willing 
African counterparts that meet new, emerging needs.
    The United States has invested in Africa's peacekeeping capacity-
building (ACOTA, the African Contingency Operations Training and 
Assistance Program), in officer training (International Military 
Education and Training, MET, and programs at the Africa Center for 
Strategic Studies); and in HIV/AIDS programs (in close partnership with 
the President's Emergency Plan for AIDS Relief, PEPFAR). It has 
concluded multiple access agreements, launched an important and 
promising effort to bolster maritime security in the Gulf of Guinea, 
and introduced key counterterrorism programs. In East Africa, most 
notable is the Djibouti-based Combined Joint Task Force/Horn of Africa 
(CFJT-HOA) and the related East Africa Counter-Terrorism Initiative. In 
West Africa is the Trans-Sahara Counter-Terrorism Initiative.
    So why the need for AFRICOM?
    We have reached a tipping point. Africa matters increasingly to 
U.S. national interests. Security programs that require careful 
management have grown in number. U.S. officials responsible for these 
programs increasingly need to approach them as a top priority--day-in 
and day-out--and not a second- or third-tier concern. That requires a 
unity of effort that transcends the present artificial geographic 
``seams'' that separate Africa into a U.S. EUCOM zone separate from the 
Horn of Africa that is the responsibility of the U.S. Central Command. 
(The U.S. Pacific Command is responsible for Africa's Indian Ocean 
island nations.) It requires stronger leadership, coherence and 
integration of programs, and more effective management. And it requires 
confidence that the resources and commitments needed over the long term 
will be there, and that Congress and the American people will be 
supportive. These are the accumulating concerns that AFRICOM is 
intended to address.
    No less important, AFRICOM provides the important opportunity to 
experiment and do things differently. It is a command that can place 
capacity-building in Africa at the center of its mandate, that holds 
the promise of creating innovative, integrated civilian-military 
approaches, and that can try out new structural arrangements that 
feature regional centers.
2. AFRICOM's launch has moved quickly, but has also generated hard 
        lessons that now need heightened attention.
    AFRICOM is less than 1 year in the making. President Bush made the 
decision to move ahead with AFRICOM only last November and officially 
launched the effort in early February of this year. The startup team 
led by ADM Robert Moeller moved rapidly to devise a launch plan. Deputy 
Secretary of Defense for Policy Ryan Henry led two U.S. delegations to 
Africa and Europe, in April and June, and the White House nominated 
General Kip Ward just this month to be AFRICOM's first Commander in 
Chief.
    Considerable progress has been achieved, in a compressed period of 
time, reliant on the intense efforts of many dedicated officials such 
as Deputy Assistant Secretary of Defense Theresa Whalen, a gifted 
expert on Africa security who has been indefatigable in developing 
AFRICOM.
    But things have lately not gone well, in Africa and Europe, and 
internally within the U.S. Government.
    Across Africa, and in Europe as well, critics in governments and 
media alike have made headway in casting AFRICOM as the triumph of 
militarism, in which U.S. engagement in Africa will now be dominated by 
energy security and the global war on terror, along with fending off 
China's competition. According to this view, the shift from scattered 
U.S. security programs to a single U.S. command is a sharp turn to a 
cold-war-type competition. As in that earlier period, the United States 
will disregard the long-term negative consequences of its engagement in 
places like Somalia, Ethiopia, and West Africa, show no real interest 
in an integrated civilian-military approach, and make no long-term 
sustained commitments to build African capacities.
    To counter this critique, AFRICOM's leadership needs to better 
address the political risks and fears felt by African leadership, and 
better define what the value-added will be for African partners. These 
issues are especially acute for the candidate countries in Africa where 
AFRICOM might in the future have a physical presence.
    Africa's political leaders have up to now been willing and able to 
strike new partnerships with the U.S. military on security cooperation 
without confronting much domestic political opposition. The impending 
creation of a unified, conspicuous Africa Command fundamentally changes 
the context and invites intensified scrutiny. Controversy over the U.S. 
invasion of Iraq and its aftermath have fueled skepticism of U.S. 
security engagement in Africa and the larger concern with the 
Department of Defense's expanding dominance of U.S. foreign policy and 
expanded assistance authorities. As a consequence of these factors, 
many African leaders face rising pressure from within their own ranks 
and from skeptical media and nongovernmental groups to justify security 
relationships with the United States.
    Selling U.S. capacity-building activities in Africa is made no 
easier by live terrorist threats and in some cases active U.S. 
counterterror operations. This problem is most pronounced in the Horn 
(especially Somalia, Ethiopia, Sudan), North Africa, and East Africa's 
Swahili Coast (especially Kenya and Tanzania).
    Within north African countries, where al-Qaeda in the Islamic 
Maghreb (formerly the Salafist Group for Preaching and Combat) seeks to 
leverage internal radical Islamist sentiments and has had recent 
success in carrying out terror bombings in many major urban centers, 
there are obvious risks of identifying with AFRICOM.
    In Horn of Africa countries, witness to the disturbing events 
unfolding in Somalia, the U.S. association with the Ethiopian 
intervention there, and the subsequent rendition of prisoners from 
Kenya to Ethiopia, there is an understandable wariness of the creation 
of a strong, unified U.S. Africa command. Countries such as Sudan and 
Eritrea see AFRICOM as a direct threat. Other established security 
partners with the United States, such as Kenya and Ethiopia, fear 
domestic reactions and violent targeting of a U.S. presence.
    To offset apprehension and risk requires spelling out the concrete 
benefits that will accrue from the launch of AFRICOM, beyond existing 
programs. This has yet to happen. In the meantime, China has 
dramatically expanded its military training and provision of equipment, 
and tied that enlarged security relationship to a broader south-south 
political alliance. Normatively and operationally, China actively vies 
with the United States for influence and access.
    Within the State Department and USAID, there is widespread 
apprehension that AFRICOM will overwhelm civilian-led policy leadership 
and the interagency process. Accordingly, commitments from the State 
Department and USAID to join AFRICOM ranks have been ambivalent and 
desultory.
3. Suggestions for a way forward.
    There are a few key steps that can strengthen AFRICOM's approach 
and prospects for success.
    First, AFRICOM's leadership and its champions in the White House 
and elsewhere should overtly reaffirm its core values and clarify its 
mandate. That should involve outlining how operationally AFRICOM's work 
will be answerable to civilian policymakers in Washington, how the 
interagency process will actually operate, how AFRICOM's transparence 
will be guaranteed, and how it will advance democratic governance, 
respect for human rights, and poverty alleviation. A special effort 
should be made to appoint, as the first Deputy Commander of AFRICOM 
responsible for civil-military activities, a known and respected senior 
State Department official.
    Second, AFRICOM's leadership should reaffirm, doctrinally and in 
the development of new programs, its commitment to working with African 
partners to address the full spectrum of evolving security challenges 
in Africa: Terrorist threats in North Africa, the Horn, the Swahili 
Coast; internal and cross-border wars; degradation of the environment; 
public health; weak and failed states; and crime, including grand scale 
oil theft schemes, piracy and plundering of fisheries.
    Third, AFRICOM should spell out in detail how its creation will 
systematically enlarge the foundation of existing programs and increase 
the ability to sustain these programs into the future. It should set 
targets for steady incremental progress in the areas where the 
Department of Defense has its greatest comparative advantage: e.g. the 
expansion of ACOTA, IMET, military-to-military health programs, and 
maritime programs in the Gulf of Guinea. Where possible, it should link 
AFRICOM to the reconstruction of Liberia (specifically Monrovia harbor) 
and the work of the Millennium Challenge Corporation (e.g. renovation 
of Benin port).
    Fourth, AFRICOM's plan of action should set targets for 
strengthening U.N. peace operations, the African Union, and Africa's 
regional bodies. It should set similar targets for incorporating 
indigenous nongovernmental groups into civil-military initiatives.
    Fifth, the administration should devise a multiyear plan for 
strengthening U.S. civilian policy and program capacities, especially 
at the Department of State and USAID. Its strategy should emphasize the 
exceptional needs in these areas, that now warrant special career 
incentives, new expertise in areas such as public health, and 
accelerated recruitment and training. A robust staff plan should be 
devised for the next 5-10 year period.

    Senator Feingold. Thank you, Doctor.
    Mr. Malan.
    If we could try to stick to 5 minutes, I'd appreciate it.

    STATEMENT OF MARK MALAN, PEACEBUILDING PROGRAM OFFICER, 
             REFUGEES INTERNATIONAL, WASHINGTON, DC

    Mr. Malan. Thank you very much, Senator Feingold, for the 
honor of testifying before this very timely hearing.
    I'm totally new to Washington, DC, and the humanitarian 
community, having joined Refugees International in May of this 
year, but I have 31 years of experience in working in Africa, 
20 as a soldier and 11 as a civilian, trying to build African 
peacekeeping capacity. So, I have two concerns, or areas of 
concern, to raise before you today, and one is the 
perspectives, the concerns of the Washington, DC, based NGO 
community, and the other is African perspectives, some fears 
that have been voiced rather loudly recently.
    In your letter of invitation, Senator Feingold, you asked 
me if I think there's any chance that AFRICOM could be 
perceived as a threat or somehow undermine United States 
interests in Africa. If we look at the African press, the 
answer would be an unambiguous yes. Recent articles appearing, 
with titles like ``African States Oppose U.S. Presence,'' 
``SACD Shuns Spectre of U.S. AFRICOM's Plans,'' ``Global Cop 
USA Seeks More Presence in Africa,'' ``The Americans Have 
Landed,'' and, ``The Scramble for Africa's Oil,'' to name but a 
few.
    When the United States defines or markets a combatant 
military command, in terms of development and humanitarianism, 
Africans inevitably suspect that the true story is being kept 
from them, much what Dr. Steve Morrison was saying, yet, the 
DOD and the marketing have persisted with emphasizing the role 
that AFRICOM will play in humanitarian and developmental 
efforts. This kind of messaging, rather than allying African 
concerns that the United States military will, indeed, hunt 
terrorist networks--we expect that, we welcome that--but 
creating the impression that the Pentagon is taking charge of 
United States development policy and humanitarian assistance in 
Africa. Africans see much sense in the argument for interagency 
cooperation; what they find strange is that this is linked to a 
combatant command. According to one of Africa's leading 
security analysts--I quote from him--``The much vaunted 
interagency staff to be included in AFRICOM should be seen for 
what it is, the further cooption and subjugation of U.S. 
foreign and development policy to a near-colonial agenda which 
is inimical to Africa and, ironically, to the U.S. itself.'' 
Please don't shoot the messenger on that.
    As far as local operational NGOs are concerned, the primary 
concern is that AFRICOM will increase the trend toward the 
militarization of humanitarian action. This is more than 
concerns about the militarization of U.S. foreign policy. The 
humanitarians are purists. To them, humanitarian action is more 
than building schools and digging wells. It should be motivated 
by humanitarianism, which is an assertion of the universal 
sanctity and dignity of human life, as manifested in the 
commitment to provide protection to civilians on all sides of 
an armed conflict, the good guys and the bad guys. It's 
underpinned by the principles of humanity, impartiality, and 
independence. And upholding these three principles demands 
constant vigilance on the part of the NGOs against cooption of 
the language of humanitarianism by political and military 
actors, including those who are marketing AFRICOM.
    There can, in my opinion, at best, be good liaison and 
perhaps coordination between humanitarian, developmental, and 
military actors, but not integration. Even within United 
Nations peace operations, which are reliant on relatively weak 
voluntary troop contributions, there has been stiff resistance 
from humanitarians to the concept of integrated missions in the 
field. Yet, AFRICOM is marketed as an integrated command, time 
and time again.
    At a practical level, a level the NGOs can note, that it's 
evident that neither USAID nor State have the funds or the 
personnel to fill the significant number of civilian posts 
which are supposedly envisaged for AFRICOM, and they fear that 
a military lens will dominate any nonmilitary tasks assigned to 
AFRICOM.
    Let me turn to, perhaps, a positive role, a support role 
for AFRICOM that does not blur civil-military lines and 
encroach on humanitarian terrain. I think that, beyond a 
legitimate military counterterrorism priority, AFRICOM should 
focus on two primary and unashamedly military support roles; 
mainly, defense sector reform, including civil-military 
relations, and really entrenching the democratic principle of 
civilian supremacy over the military, and (b) support to 
building African peacekeeping and standby force capacity. These 
roles are, indeed, envisaged by the DOD, but they are not writ 
large in the marketing pitch at this point.
    Get beyond civil-military relations and defense-sector 
transformation, which we know is both a preconflict or conflict 
prevention, unopposed conflict reconstruction task on the 
peacekeeping side--and I'll be quick, I'm aware time is running 
out--we see 55,000 uniformed U.N. peacekeepers deployed in 
Africa today. Only 17,000 of these are African. Most of the 
rest of the contingents come from Asia. The demand in the 
immediate future with--Senator Lugar referred to the resolution 
on establishing the African Union U.N. mission in Darfur with a 
force level of an extra 20,000 troops. If Somalia comes online, 
the U.N. contingency planners are talking about a figure of 
20,000 for Somalia, and the AU, if stood up by 2010, as the 
ideal is, for Africa to have a standby force capable of 
intervening to prevent or stop genocide and ethnic cleansing 
will require further 20,000 peacekeepers. We're looking at a 
shortfall of 60,000.
    It's clear that ACRI, ACOTA, and GPOI, over the last 
decade, have not produced a viable and credible independent 
African peace operations capability, nor has it produced a 
sufficient ready reserve of African U.N. peacekeepers. AFRICOM, 
indeed, holds the promise of joining up current U.S. military 
capacity-building programs, such as GPOI, ACOTA, and IMET, and 
of evaluating and upgrading them to ensure their relevance and 
effectiveness in delivering more and better African 
peacekeepers.
    On the African standby force, it's not just about the 
troops. The African Union lacks strategic management capacity, 
has no effective mechanisms for operational-level mission 
management, it has insufficient logistics support and ability 
to manage logistics, it lacks communication capacity, 
information systems, and it is totally dependent on external 
partners for technical advice and support. There's a huge role 
for AFRICOM to play here, but the marketing pitch needs to 
emphasize that AFRICOM is aware of the policy framework 
document for the African standby force, and the procedure, the 
roadmap toward establishing this capability toward 2010.
    In conclusion, Senator, the establishment of AFRICOM holds 
great promise for a more joined-up approach to U.S. military 
engagement with the continent. And I quote from Mr. Ryan Henry 
in one of his briefings to the foreign media. He put it this 
way, ``Instead of having three commanders that deal with Africa 
as a third or fourth priority, we will have a single commander 
that deals with it, day in and day out, as his first and only 
priority.''
    That is the main reason for the standup of AFRICOM, and we 
should leave a full stop after that. This is the main reason 
why Africans should embrace the new command. Informed, 
persistent, and coherent engagement is far better than ad hoc 
United States military engagement or retrenchment in Africa. 
Better coordination of United States defense, diplomatic, and 
development initiatives and improved cooperation in the field 
should also be welcomed by Africans and humanitarians, but they 
first need to see that 3D works in D.C. Until such time as the 
ability to coordinate and cooperate is demonstrated in 
Washington, the DOD would do well to expand upon AFRICOM 
military role and let State and AID speak to the issues of 
diplomacy and development.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Malan follows:]

   Prepared Statement of Mark Malan, Peacebuilding Program Officer, 
                 Refugees International, Washington, DC

                              introduction
    I want to thank Senator Feingold most sincerely for inviting me to 
testify before this important and timely hearing. This is my first 
appearance before you, so please allow me a brief introduction. I am 
new to Washington, DC, and the USA, having joined Refugees 
International as head of their peacekeeping program this May.
I shall do my best to convey to you the concerns about AFRICOM of RI 
and the broader humanitarian NGO community. However, as an African (I 
am a South African citizen) who has spent 20 years in the military and 
the last 11 years as a civilian working on African security and 
peacekeeping capacity-building issues, I shall first highlight some of 
the real concerns about AFRICOM that have been voiced rather loudly in 
Africa.
                            african concerns
    Senator Feingold, you asked, in my letter of invitation, if I think 
there is any chance that AFRICOM could be perceived as a threat or 
somehow undermine U.S. interests in Africa? The answer (to both parts 
of this question) is ``yes.'' A quick glance at the titles of recent 
articles on AFRICOM in the African press indicates that the Command is 
indeed perceived as a threat: ``African States Oppose U.S. Presence''; 
``North Africa Reluctant To Host U.S. Command''; ``SADC Shuns Spectre 
of U.S. Africom Plans''; ``Global Cop USA Seeks More Presence in 
Africa''; ``AFRICOM Struggles To Improve Image of U.S.''; ``The 
Americans Have Landed''; ``The Scramble for Africa's Oil''; ``Africa 
Rebukes Bush on African Command''; etc.
    In some parts of the world, like Iraq and Afghanistan, the face of 
U.S. foreign policy is clearly a military one. In Africa, the DOD 
appears to be putting a civilian mask on the face of a combatant 
command, with its marketing pitch for AFRICOM. This disingenuous 
strategy is not working. The veneer of the mask is simply too thin, and 
attempts to patch the holes that have emerged--by telling us ``what 
AFRICOM is not about'' and reemphasizing a humanitarian and 
developmental role for the U.S. military in Africa--simply make the 
face of U.S. foreign policy much shadier.
    The notion of a benign U.S. combatant command is an enigma to those 
who clearly understand (and accept) the need for the U.S. to secure 
access to Africa's natural resources, especially oil; and to establish 
bases from which to destroy networks linked to al-Qaeda. When the U.S. 
promotes a combatant military command in terms of development and 
humanitarianism, Africans will inevitably suspect that the true story 
is being kept from them.
    According to its draft mission statement: ``U.S. Africa Command 
promotes U.S. National Security objectives by working with African 
states and regional organizations to help strengthen stability and 
security in the AOR. U.S. Africa Command leads the in-theater DOD 
response to support other USG agencies in implementing USG security 
policies and strategies. In concert with other U.S. Government and 
international partners, U.S. Africa Command conducts theater security 
cooperation activities to assist in building security capacity and 
improve accountable governance. As directed, U.S. Africa Command 
conducts military operations to deter aggression and respond to 
crises.''
    This is a clear, unambiguous, and legitimate mission; one that 
should be understood and accepted by African leaders. Yet DOD officials 
continue to emphasize the nonmilitary roles of AFRICOM. At a June 22 
briefing, for example, Principal Deputy Under Secretary of Defense for 
Policy, Ryan Henry, confirmed that AFRICOM's primary missions include 
humanitarian assistance, civic action, and response to natural 
disasters. This kind of ``messaging'' has amplified African concerns, 
creating the impression that the Pentagon is taking charge of U.S. 
development policy and humanitarian assistance in Africa.
    There is much sense in the argument for interagency cooperation; 
what does not make sense is linking this to a combatant command. 
According to one of Africa's leading security analysts, AFRICOM should 
be orientated to an appropriate and clearly delineated role, with 
nonmilitary issues kept outside of its grasp: ``The much-vaunted 
interagency staff to be included in AFRICOM should be seen for what it 
is--the further cooption and subjugation of U.S. foreign and 
development policy to a neocolonial agenda which is inimical to Africa 
and ironically, to the U.S. itself.''
                              ngo concerns
    The main concern of operational NGOs is that AFRICOM will increase 
the trend toward the militarization of humanitarian action, which 
raises fundamental concerns about the purpose of such assistance. 
Security objectives envisioned in the short term can run at cross 
purposes to the longer term vision of creating stable and sustainable 
institutions that are accountable and responsive to the needs and 
aspirations of all segments of the population. Such concerns are 
amplified by the way AFRICOM is being presented as a tool for 
integrating U.S. military, political, and humanitarian objectives under 
a unified military command. For example, Ryan Henry has emphasized 
that: ``[T]he deputy for the command . . . will be a senior civilian 
from the State Department so that we can integrate with the diplomatic 
aspects. . . . [we] will also have a large percentage of civilians from 
different parts of the U.S. Government integrated into the command, 
because our engagement on the continent is one of diplomacy, of 
development and where we can be of assistance to Africans. And having 
an integrated staff will help us to do a better job in integrating with 
those other parts of the U.S. Government's engagement.''
    The specter of integration is unnerving for humanitarians; they 
cannot be supportive of the new command as long as AFRICOM portends to 
be a humanitarian actor and promises to subsume humanitarianism within 
the ambit of military strategy. Humanitarian action is more than the 
act of restoring basic living standards to individuals and communities 
who have been deprived of them by circumstance. It should be motivated 
by humanitarianism; a powerful assertion of the universal sanctity and 
dignity of human life, and a practical manifestation of the need to 
provide protection to civilians in times of crisis and conflict. It is 
underpinned by the principles of Humanity, Impartiality, and 
Independence--the observance of which is essential to maintaining the 
trust of all sides of a given conflict, and to maintaining access to 
victims. Strict observance of these ``core principles'' is an essential 
guard against the use of humanitarian assistance to induce compliance 
with political demands, and upholding the principles demands constant 
vigilance against cooptation of the language of humanitarianism by 
political and military actors.
    On the other hand, in Africa, mass displacement, hunger and disease 
is often the humanitarian fallout of political failures. In order to 
effectively address these challenges, there may well be a need for 
military strength and political direction, as well as humanitarian 
action; and few would contest the need for these three elements to 
collaborate in the field. Nevertheless, differences in philosophy and 
operational priorities mean that these three types of response do not 
naturally coexist. There can at best be good liaison and perhaps 
coordination between humanitarian, developmental and military actors--
but not integration. Even within United Nations peace operations, which 
are reliant on relatively weak voluntary troop contributions, there has 
been stiff resistance from humanitarians to the concept of ``integrated 
missions'' in the field.
    There are military rationales for soldiers to engage in limited 
projects that involve humanitarian or development-type activities. 
These are generally linked to issues of force protection and 
intelligence-gathering, and the general military aim of ``winning 
hearts and minds.'' The efficacy of such ``humanitarian'' efforts is 
questionable, and should be debated from the standpoints of the 
military's own objectives and with respect to concerns of the 
development and humanitarian community. There are obvious compelling 
practical, as well as moral, reasons for civilian institutions and 
civil society to undertake the vast majority of such work. Agencies 
such as USAID as well as many large operational NGOs have far more 
experience than the military in implementing development and 
humanitarian programs. And they can do so at far lower cost than the 
military. Where the military is the only agency with the capacity to 
provide humanitarian and development assistance, the solution should 
lie in allocating adequate resources to USAID, rather than reinforcing 
and expanding the military's role in this sphere.
    On the other hand, the U.S. military is seen as an active or 
indirect belligerent in some contexts in Africa--for example, in the 
Horn of Africa. In such cases, militarization of development and 
humanitarian assistance can do grave damage by undermining respect for 
the impartiality and nonpartisanship of the humanitarian mission. 
Moreover, although there has been some discussion, and even some 
agreement, about operational guidelines for interaction between 
civilian agencies and the U.S. military in contexts such as Iraq and 
Afghanistan, there has been little progress in addressing the 
underlying policy questions about appropriate division of roles between 
U.S. Armed Forces and humanitarian and development agencies.
    The proposed integrated relationship between U.S. foreign policy 
and U.S. military strategy, emphasized in the AFRICOM briefs and 
concretized in the intention to appoint a civilian (State Department) 
deputy to General Ward, has raised eyebrows within the Washington-based 
NGO community. There is concern about the uncooperative relationship 
between State and DOD and the fact that there is little substantive 
interagency collaboration. And there is deep suspicion that the $750 
million in separate funding that the DOD is seeking under the Building 
Global Partnerships Act is motivated partly by a desire for 
independence from Title 22 funding controlled by State (e.g. for IMET, 
FMF, and ACOTA). As demonstrated by the experiences of the U.K., 
Canada, France, Germany, and Sweden (as well as those of the USA), 
there are always tensions inherent in aligning security, diplomatic, 
and development efforts. Unlike most of these countries, however--where 
resources allocated to the Departments of Defense, Foreign Affairs, and 
to International Development Agency are not grossly unequal--the 
resources of the U.S. DOD dwarf those of the State Department and 
USAID. As with people, where tensions exist between organizations, the 
priorities of the stronger entity will overwhelm those of the weaker; 
thus the real fear that AFRICOM will marginalize and/or subordinate 
long-term development goals to short-term political and security 
imperatives.
    At a practical level, it is also very evident that neither USAID 
nor the Department of State (or any other civilian agency) has the 
funds or the personnel to fill the significant number of civilian posts 
envisioned for AFRICOM. Moreover, AFRICOM's regional, strategic 
structure, is likely to predominate over the country-based, more 
tactical and operational structure of the USAID missions. This, 
together with the fact that the regional expertise of State resides in 
Washington, DC, not in Africa, is seen as a recipe for enabling a 
military lens to dominate any nonmilitary tasks assigned to AFRICOM.
    In short, the concerns of the humanitarian NGOs overlap with those 
of Africans--to the extent that they are both underpinned by the fear 
of the militarization of humanitarian and development assistance, as 
well as U.S. policy in Africa. An obvious way to overcome such concerns 
and enhance the credibility of the new combatant command, is to focus 
attention and effort on those noncombatant roles which are relevant, 
meaningful, and undeniably appropriate for the U.S. military.
a support role for africom that does not blur civil-military lines and 
                    encroach on humanitarian terrain
    Beyond military counterterrorism priorities, AFRICOM should focus 
on two primary and unashamedly military support roles, namely (a) 
defense sector reform, including civil-military relations; and (b) 
support to building African peacekeeping and standby force capacity. 
These roles are indeed envisioned by the DOD, but they are not writ 
large at this point. The AFRICOM Transition Team Web site simply states 
that: ``AFRICOM is a headquarters staff whose mission entails 
coordinating the kind of support that will enable African governments 
and existing regional organizations, such as the African Standby Force, 
to have greater capacity to provide security and respond in times of 
need. AFRICOM will build on the many African-U.S. security cooperation 
activities already underway, yet be able to better coordinate DOD 
support with other U.S. Government departments and agencies to make 
those activities even more effective.''
    It is silent on the challenges of Security Sector Reform in Africa, 
and on the precise role that the U.S. military, through AFRICOM, might 
play in building more professional armed forces and entrenching the 
democratic principle of civil supremacy over the military. Africa's 
principal security challenge is to mobilize sufficient resources to 
provide a secure, stable, and well-governed environment characterized 
by the rule of law, in which human rights and civil liberties are 
protected and promoted--and where business can thrive. All African 
countries face a capacity deficit in their institutions of state, and 
the state is too often a predator rather than a facilitator. Since the 
1960s, African armies have exhibited a tendency toward rapacious 
behavior, and the rebellions spawned in response have caused 
unimaginable suffering for civilians. African governments and civil 
society movements should therefore embrace AFRICOM support for defense 
transformation--if it is made clear that the approach will be 
collaborative and that assistance will be sustained over a long period 
through the mechanism of the new Command.
    In the realm of defense sector reform, the importance of sustained 
external mentoring and commitment is well recognized and cannot be 
overemphasized. The usefulness of a lead-nation rather than 
multinational approach has been demonstrated by the U.K. in Sierra 
Leone, as has the allocation of sufficient financial resources to do 
the job properly. On the other hand, there are many examples of 
perverse consequences of short-term U.S. assistance to select African 
armies. AFRICOM should therefore demonstrate that it understands the 
role of military support within the broader sphere of Security Sector 
Reform (which includes the police and intelligence agencies as well as 
the judicial sector), that it is willing to provide sustained support 
to defense transformation in partner countries, and that it will have a 
secure funding mechanism to do so.
    On the peacekeeping side, years of U.S. assistance to Africa 
through ACRI, ACOTA, and GPOI have not produced a viable and credible 
independent African peace operations capability. Rather, these programs 
bring home the fact that real capacity-building is not a simple ``train 
and equip'' quick fix. Africa needs a demonstrable commitment by 
AFRICOM to provide long-term, sustainable support to developing African 
peacekeeping capabilities--for participating in U.N. peacekeeping, as 
well as African Union and regional operations.
    There are 54,924 uniformed U.N. peacekeepers deployed in Africa--
17,393 of them are African. The U.N. is currently looking for an 
additional 20,000 peacekeepers to staff the proposed UN/AU hybrid 
mission in Darfur (to take over from a force of some 7,000 AU troops 
and police). Khartoum is insisting that the additional troops come from 
Africa, but Africa's capacity and/or will to provide them is sadly 
lacking. In Somalia, 1,500 Ugandan troops have been deployed for 
several months in what was supposed to be an 8,000-strong AU mission in 
that country. They are still awaiting the arrival of an additional 
6,500 troops to bring the mission up to authorized strength, while the 
AU is pleading with the U.N. to take over responsibility for the 
mission. U.N. officials, busy with contingency planning for a possible 
Somalia mission, are talking of a force level of 20,000. So there is an 
impending demand for an additional 40,000 peacekeepers in Africa, and 
little evidence to suggest that GPOI has created the necessary ready 
supply.
    AFRICOM holds the promise of joining up current U.S. military 
capacity-building programs such as GPOI, ACOTA, and IMET; and of 
evaluating and updating such programs to ensure their relevance, 
coherence, and effectiveness in enhancing the quality and quantity of 
African troops who are readily available for peace operations. However, 
for an initiative that represents ``the culmination of a 10-year 
thought process within the Department of Defense,'' there is a 
surprising lack of detail on how AFRICOM intends to bridge African 
peacekeeping capacity gaps; gaps which are enormous and growing.
    Beyond critical shortages in current and planned U.N. and AU 
missions, there are great expectations of the African Union being able 
to rapidly deploy an all-African standby force for future operations. 
In May 2003, the African Chiefs of Defense Staff produced a draft 
policy framework document on the establishment of an African Standby 
Force (ASF), which would be able to rapidly deploy when mandated to do 
so by the AU's Peace and Security Council. The ASF is to consist of 
five regionally managed brigades, located in Central, North, South, 
East, and West Africa. Each brigade is to be composed of police units, 
civilian specialists, 300-500 military observers, and 3,000-4,000 
troops, bringing the proposed total standup capacity of the force to 
between 15,000-20,000 peacekeepers (which approximates, coincidentally, 
the number of troops being sought for Darfur, as well as Somalia). The 
ASF is supposed to be capable, by 2010, of undertaking a variety of 
operations, ranging from simpler observation and monitoring operations 
to interventions to halt ethnic cleansing or genocide.
    This ideal is unlikely to be realized as long as the AU is bogged 
down in current, nonviable missions, and without a much higher level of 
concerted support to the ASF from partners such as the European Union 
and the USA. It is not simply troop numbers that are lacking; the AU 
mission in Darfur has revealed that the AU suffers from a lack of 
strategic management capacity; has no effective mechanisms for 
operational-level mission management; has insufficient logistic support 
and ability to manage logistics; lacks capacity in communication and 
information systems; and is totally dependent on external partners for 
technical advice and support.
    AFRICOM can and should make a concerted effort to assist the AU in 
overcoming these critical capacity gaps. If this is indeed to be one of 
the major tasks of AFRICOM, then it would make sense for the Transition 
Team to exhibit some knowledge of the detail of the ASF Policy 
Framework and Implementation Roadmap, and to be actively discussing how 
AFRICOM may best lend support to the ASF--rather than hammering on 
humanitarian and developmental issues.
    Moreover, it has been mentioned in DOD briefs that AFRICOM will 
play a ``donor'' coordination role. This should be regarded as a 
priority task, and be strongly emphasized in the emergent AFRICOM 
mandate. African leaders remain skeptical of donor assistance; at 
times, this skepticism has turned to resentment toward uncoordinated 
Western initiatives for enhancing African peacekeeping capabilities. In 
1997, France, Britain and the USA attempted to address African 
sensitivities to the lack of coordination by announcing a ``P3'' 
initiative, which was supposed to coordinate ongoing and future 
capacity-building efforts by the three powers. To date however, there 
has been little evidence of effective coordination between the P3; the 
initiative resulted in little more than mutual noninterference, rather 
than harmonization.
    This is a serious shortcoming, among others because the AU and the 
subregional organizations in Africa lack the capacity to analyze and 
absorb the plethora of assistance initiatives emanating from the P3, 
the G8, the EU, the Nordic countries and others. With a four-star 
general at the helm and on the continent, AFRICOM would be uniquely 
poised to act as a focal point for liaison and coordination between 
African countries and organizations and their multiple peacekeeping 
capacity-building ``partners.''
                               conclusion
    The establishment of AFRICOM and the transfer of geographical 
responsibility for Africa from EUCOM, CENTCOM, and PACOM hold great 
promise for a more joined-up approach to U.S. military engagement with 
the continent. As Mr. Henry has put it, ``. . . instead of having three 
commanders that deal with Africa as a third or fourth priority, we will 
have a single commander that deals with it day in and day out as his 
first and only priority . . . that is the main reason for the standup 
of AFRICOM.'' The new command should be welcomed by Africans on this 
ground alone. Informed, consistent and coherent engagement is far 
better than ad hoc U.S. military engagement or retrenchment in Africa.
    Better coordination of U.S. Defense, Diplomatic, and Development 
initiatives, and improved cooperation in the field should also be 
welcomed in Africa. Until such time as the real ability to coordinate 
and cooperate is demonstrated in Washington, however, the DOD would do 
well to expound upon AFRICOM's military role, and let State and AID 
speak to issues of diplomacy and development.

    Senator Feingold. Thank you, Mr. Malan, for your useful and 
candid testimony.
    Major General Gration.

   STATEMENT OF MG JONATHAN S. GRATION, USAF (RET.), FORMER 
  DIRECTOR, STRATEGY, POLICY, AND ASSESSMENTS, UNITED STATES 
                        EUROPEAN COMMAND

    General Gration. Thank you, Mr. Chairman, Senator Lugar. I 
appreciate this opportunity to share some of my views about 
Africa and how they might relate to the new Africa Command.
    As I explained in my written statement, I went to Africa in 
1952, learned to walk there, learned to talk there; the fact 
is, my first sentence was in Swahili. And during the years that 
I spent there, to include flying with the Kenya Air Force, I 
became firmly convinced that the continent's security issues 
are directly linked to its significant stability challenges. 
Extreme poverty, the youth bulge, insufficient job 
opportunities, corruption, weak governance continue to fuel the 
feelings of helplessness and despair. It's this environment 
that is very hostile to effective security programs and limits 
Africa's chances of achieving its enormous human and resource 
potential. But it's within this context that AFRICOM must 
operate, and it won't be easy.
    The more I've learned about Africa, the more I've learned 
that I need to learn, but there are a few things that I believe 
AFRICOM should keep in mind as it becomes operational.
    First, it needs to be proactive and preventative in its 
programs, using all the elements of national power, because 
these are significantly cheaper and more effective than 
reactive and corrective measures. Our experiences in countries 
like Liberia, Somalia, and Sudan are obvious examples.
    Second, I believe AFRICOM should focus on working to help 
Africans help Africans. We must deal with the African Union, 
and work with them, the five regional economic communities and 
individual countries, to ensure that our assistance programs 
mesh with their regional and national programs. United States 
initiatives must have the approval and support of our African 
hosts if they are to work; if they are to last.
    Since we are guests, we must listen to our hosts and 
understand their views and requirements. The United States must 
build relationships that are based on mutual trust and respect. 
We must form strong partnerships based on shared understandings 
of security requirements and a common vision for the future. 
And this might require an attitude adjustment.
    Finally, to the maximum extent possible, our assistance 
programs must be focused on sustainment, replicability, and 
scalability. Train-the-trainer programs should be a critical 
component of any initiative. And we need to work ourselves out 
of a job. There needs to be a sundown clause in our individual 
training programs and assistance projects.
    In conclusion, the DOD's theater security cooperation 
program must be matched by a similar interagency commitment to 
enhance and resource a more robust regional stability 
cooperation program. Increased security depends on better 
governance and plans for long-term stability that foster a 
believable hope among Africans that tomorrow will be better. 
This means cleaner water, adequate food, better schools, 
available and affordable health care, improved infrastructure, 
communications, and more employment opportunities, together 
with human rights and total gender equality. But I believe our 
ultimate success will stem from our attitude and our approach, 
style points. AFRICOM must be perceived by Africans as being a 
good and respectful guest, a valued partner. And, toward that 
end, AFRICOM truly must be about Africans helping Africans.
    Thank you.
    [The prepared statement of General Gration follows:]

   Prepared Statement of MG Jonathan S. Gration, USAF (Ret.), Former 
   Director, Strategy, Policy, and Assessments, U.S. European Command

    Thank you for this opportunity to share some of my opinions about 
Africa and how they might relate to the new Africa Command. As you are 
aware, I served as the Director of Strategy, Policy, and Assessments at 
the European Command and was deeply involved with U.S. military 
activities in Africa. But my interest in Africa goes back to 1952 when 
my parents moved to the Belgian Congo when I was a year old. Learning 
Swahili along with English, I learned quickly to communicate with 
Africans--they were my friends and playmates in those early years. 
During the turbulent years after independence, we were forced to 
evacuate to Uganda, then to Kenya where we lived until 1967. I returned 
to Kenya after college to do 3 months of humanitarian work, then again 
to Uganda in 1979 during the last days of Idi Amin. I later flew as an 
F-5 instructor pilot for 2 years with the Kenya Air Force, and served 
as an Africa Desk Officer in the Pentagon in the mid-80s. Throughout my 
entire career, I've continued to have a deep interest in humanitarian 
issues in Africa, especially with orphaned and disabled children.
    Until recently, I served as the CEO of Millennium Villages, an 
organization established to help end extreme poverty in Africa and to 
help developing nations achieve the U.N.'s Millennium Development 
Goals. During my frequent visits to Africa, I became even more 
convinced that the continent's security issues are linked to its 
significant stability challenges. Extreme poverty, the youth bulge, 
insufficient job opportunities, corruption, and weak governance 
continue to fuel feelings of hopelessness and despair. This is an 
environment hostile to effective security programs and it limits 
Africa's chances of achieving its enormous human and resource 
potential.
    Despite significant obstacles to sustained development, natural 
disasters and poor leadership in some countries, we must continue to 
meet our near-term challenges. We should try to collaborate on and 
compliment activities of partners with similar objectives in Africa, 
particularly in the context of the New Partnership for Africa's 
Development (NEPAD). We must consult and cooperate with African and 
international partners to resolve the situations in Darfur, Somalia, 
DRC, and the Western Sahara. We must help to coordinate a plan to deal 
with countries like Zimbabwe, especially for the post-Mugabe period. We 
must determine where the actions of other external players (e.g., 
China, Russia, and Korea) compete or conflict with our interests and 
take appropriate action promptly, while placing an emphasis on how we 
can cooperate with external powers in Africa. We must confront 
terrorist threats where we find them and help African countries 
eliminate terrorist and criminal safe havens throughout the continent.
    With this as background, let me state up front that I supported 
establishing a separate command to deal with Africa when I was in the 
military and I'm delighted to see it's becoming a reality. I believe we 
need one unified command to coordinate and synchronize our military 
activities in Africa. We will get an even greater benefit when this 
command is truly integrated with all the other elements of U.S. power 
and diplomacy. With U.S. interests on this continent clearly defined 
and a united voice in Washington to advocate for requirement and 
resources, I believe we'll be able to advance America's interests in 
Africa better and build strong partnerships with African Government to 
eliminate poverty and accelerate Africa's integration into the global 
economy.
    Over the years, I've learned a few lessons about dealing with 
Africa. It might be useful for the new Africa Command to consider these 
lessons as it establishes its capabilities and initiates its programs.
    1. Proactive and preventative programs using all the elements of 
national power are significantly cheaper and more effective than 
reactive and corrective measures. Our experiences in countries like 
Liberia, Somalia, and Sudan are obvious examples. We've got the Kofi 
Annan Center for Peacekeeping. Maybe it's time for the United States to 
help Africans establish the Nelson Mandela Center for Good Governance 
and the Julius Nyerere Center for Political Leadership.
    2. I believe we should focus on helping Africans help Africans. We 
must work with the African Union, the five regional economic 
communities, and individual countries to ensure our assistance meshes 
with their regional and national programs. U.S. initiatives must have 
the approval and support of our African hosts if they are to work, if 
they are to last. Since we are the guests, we must listen to our hosts 
and understand their views and requirements. The United States must 
build relationships based on mutual trust and respect. We must form 
strong partnerships based on shared understanding of security 
requirements and a common vision for the future.
    3. To the maximum extent possible, our assistance programs must be 
sustainable, replicable, and scaleable. ``Train the trainer'' programs 
should be a critical component of any initiative. We need to be working 
ourselves out of a job; there should be a ``sun-down'' clause in our 
training and assistance programs.
    I believe Africa Command is off to a good start conceptually. I 
applaud DOD's efforts to use an interagency model--to include other 
U.S. Government departments' and agencies' inputs in its decisionmaking 
process. The discussion about including personnel from other agencies 
as permanent members of the headquarters staff is also very 
interesting. Our goal not only should be to put a stronger hyphen 
between ``mil-pol'' or to make it more ``pol-mil.'' It should also be 
to create an organization that truly integrates the unique strengths 
pol, mil, econ, and development.
    Security cooperation at the AU and national level is extremely 
important and the U.S. military has made great strides in this area. 
This effort must be matched by a similar interagency commitment to 
enhance and resource a more robust ``stability cooperation'' program. 
Increased security depends on better governance and plans for long-term 
stability that foster a believable hope among Africans that tomorrow 
will be better. This means cleaner water, adequate food, better 
schools, available and affordable health care, improved infrastructure 
and communications, more employment opportunities, human rights, and 
total gender equality.
    I believe our ultimate success will stem from our attitude and 
approach as we have a larger presence and footprint in Africa. AFRICOM 
must be perceived by Africans as being a good and respectful guest, and 
a valued partner. AFRICOM must be about Africans helping Africans.
     In my view, AFRICOM is on track to be just that type of 
organization--a significant improvement over the older versions of the 
Unified Command Plan.

    Senator Feingold. Thank you, sir. Thank you all.
    We'll begin with a 7-minute round.
    Mr. Morrison, again, thank you for your testimony. What 
valuable roles do you see AFRICOM being suited for in promoting 
good governance and building stable states? In what situations 
would the military be valuable to humanitarian organizations?
    Dr. Morrison. DOD's greatest contribution, on humanitarian 
programs historically, are in situations of crisis, either 
human or natural disasters, where there's an urgent requirement 
for significant lift and distribution. We've seen this in many 
places. The Mozambique hurricane, in 2001, our military played 
a major role in mobilizing the movement of troops, fixed-wing 
aircraft and helicopter relief, and made a substantial 
contribution.
    In terms of the longer range investment in governance and 
professionalization, there's a normative contribution, that 
Mark and Paul alluded to, which is the respect of human rights 
and the respect of civilian control over operations and the 
kinds of investments that have been made. I think the normative 
contribution that can be made--let's take the Gulf of Guinea 
maritime environment there. We derive over 20 percent of our 
oil from the Gulf of Guinea. There's very little capacity, 
brown or blue water capacity, to patrol those areas. There's 
rampant piracy. And the fisheries there are plundered by others 
who come in. A multilateral, coordinated, interoperable 
maritime coast guard capacity aided by the United States could 
be a deterrent against crime, could bring wealth and 
development to those states, and could demonstrate the value of 
coordination among those parties and our United States naval 
forces, Europe, have begun that process, now, for 3 years. It 
could be expanded, it could be carried forward and enlarged, 
and it would have a dramatic impact on governance, on 
development, on regional institutions being integrated.
    Thank you.
    Senator Feingold. Thank you. Those are very good examples. 
I appreciate them.
    Mr. Malan, from your personal experience you're obviously 
aware that when regimes do not have strong popular support 
based upon representative government, they too often exert 
pressure on their militaries to suppress opposition groups, 
including peaceful opposition groups. Do you believe that 
training in the rule of law and civilian control of the 
military is a reliable safeguard against the misuse of the 
military in such situations?
    Mr. Malan. No, sir. Training is insufficient. And too 
often, addressing these problems of civilian oversight--respect 
for civilian supremacy over the military, a so-called 
apolitical defense force--is reduced to 1-week courses or 
seminars presented by the ACSS, African Center for Strategic 
Studies, small group of officers. This kind of culture, this 
kind of military culture, is established over a generation or 
two. It involves long-term engagement. It cannot be addressed 
through select officers attending courses as part of IMET 
program. It involves working alongside these militaries for 10, 
20, 30, 40 years.
    So, I don't believe there's a quick fix, that training 
equals capacity-building, or training can establish a culture, 
or that train-the-trainer courses are going to do this. The 
problems are structural. I can think of a couple of countries 
where the ruling party has employed beaters in military uniform 
and police uniforms and made instant police officers to beat 
the political opposition. I don't think this can be fixed by 
training, sir.
    Senator Feingold. Speaking more broadly, what are the 
criteria in your mind for determining when a particular 
military force or unit should not be entitled to aid from the 
United States?
    Mr. Malan. When it is used as a political tool to suppress 
opposition; when it is proven and reported by NGOs, such as 
Human Rights Watch, that that military is committing human 
rights abuses. That should be enough for turning off the tap, 
sir.
    Senator Feingold. Very good, thank you.
    Major General, I completely agree with your comment that 
AFRICOM should represent innovative political/military 
cooperation. Based on your military experience, what will be 
the main bureaucratic or logistical obstacles to the success of 
this type of interdisciplinary interagency approach? How do you 
suggest we overcome them?
    General Gration. Thank you, sir. That's a tough question, 
because it really goes to the heart of the way we're organized 
here in Washington and the way we're organized in Africa. It's 
my belief that the State Department has to have the lead, 
because the issues that are the biggest issues in Africa are 
stability issues. We're talking about diplomacy, democracy, 
human rights. All those kinds of things that were brought up 
earlier by my colleagues have to be addressed with the State 
Department lead. It is true that the Defense Department has 
great planning capability, great logistics capability, but I 
believe that the State Department has to have a stronger role 
in making things work.
    There's a couple of things that hurt us in that approach. 
One is the military has a regional perspective, and that a 
regional perspective corresponds with the way the AU is being 
organized, and it makes us very effective in looking at 
problems from a regional effect, because there is spillover, 
and those borders--and so many of the issues are regional--
terrorism, bird flu--all that stuff is cross-border kind of 
stuff, and it has to be looked at, at a regional response, even 
humanitarian disasters.
    So, I believe that we need an interagency approach that is 
regional. And the ambassadors still have to be empowered, and I 
agree, but somehow we need to restructure our State Department 
so that the Middle East Africa branch works together with the 
sub-Saharan Africa branch and in the State Department--and in 
the DOD, Theresa Whelan has to have--it all needs to match the 
Africa Union. And right now we have, in Washington, a 
coordination mechanism that doesn't reflect Africa, even in our 
schools, the ACSS, departments, and that kind of thing. So, 
that needs to be sorted out.
    The other thing is, there's not a very strong hyphen 
between ``pol'' and ``mil,'' and that needs to be put in there. 
We need to have a strong-hyphen return to ``pol-mil,'' so that 
the two are working together. And the fact is, it needs to be--
all the elements of national power need to have a strong hyphen 
between them. Africa is not producing, in accordance with its 
wealth, contribution to the global economy, so there needs to 
be a ``econ'' hyphen in there, and there needs to be a 
``development'' hyphen in there. And we all need to work 
together. And it all comes back to figuring out what is 
America's interest in Africa, and how do we take all the 
elements of power, from the interagency down through AFRICOM 
and through our ambassadors, to make sure that's happening, in 
close coordination with the governments, with the AU, the 
regional economic communities? This is a tough, big problem, 
but somehow it needs to be put in one basket and organized. And 
right now, it's schizophrenic.
    Senator Feingold. Thank you very much, sir.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    As I've listened to the testimony, and tried to think 
through various activities or missions, I would just recall a 
personal experience, from two summers ago, in which the State 
Department and the NSC, having heard from President Bouteflika 
that he would like to try to bring about the release of 
Moroccan prisoners from the Polisario camp, and somehow I 
became involved, as somebody would go down there to the camp, 
ostensibly with President Bouteflika. But, after we had a long 
conference about this situation, which our State Department 
felt was important, in terms of Algerian/Moroccan relations and 
our relations with them, President Bouteflika decided he did 
not want to go. He felt I needed to go, or it would be a deal-
breaker altogether. And, fortunately, General Jim Jones stepped 
forward. I mention this, Major, because you were heavily 
involved with General Jones in support of these operations.
    The benefit of that was that General Jones, in addition to 
being a fine officer and a good friend, could produce two 
planes, two aircraft that could carry out 404 people. I could 
not have produced anything, going down there. So, we had our 
mission, had a good visit with the chieftains. I acquired garb, 
that I still have in my office from those negotiations. And the 
net effect was, the Moroccans were freed, they went on General 
Jones's plane over to Morocco, where things were not as tidy as 
we had hoped, in terms of the reception by the Moroccans, but 
this works along.
    Now, I mention those countries, because, as I read the 
press, neither one seems to be particularly enthusiastic about 
AFRICOM, and I mention that, simply because this is a 
manifestation of how, in the best of circumstances, the 
military can work with the NSC, with the State Department, with 
President Bouteflika, with the king of Morocco, and the rest. 
There is a feeling on the part of--however, of many in both of 
those governments, that that's not the way our military works.
    And I dwell on this, because the first panel, in 
emphasizing that there was general support, a few dissenters, 
and so forth, seemed to be at variance with what the chairman 
mentioned from his reading, and I've mentioned, and you 
certainly affirm. We have a very large diplomatic process, just 
explaining, right now, to Africans why we want to do this, what 
benefit this will be to them, and to us, and to others. The 
necessity of highlighting some of the points that you gentlemen 
have made as to why this could have a humanitarian benefit or 
support democracy or transparency, or whatever, is tremendously 
important, and that it might jibe somehow with the AU, so that 
there's coincidence there.
    I accept the point made--and I'm not sure how to remedy 
it--that the State Department is woefully underfunded. This is 
the reason we get into these predicaments of who is doing what, 
because, expediently, the Defense Department has money, it has 
personnel. And so, as a result, this imbalance within our own 
structure will be reflected, I'm afraid, in AFRICOM initially, 
hopefully not perpetually. But this really does need to be 
addressed; who does what, and who has the money, and, 
therefore, who calls the shots, in some instances?
    So, I just make these observations. And then, I want to 
mention, that the issues of oil arose, and the Chinese. These 
are not incidental factors. And the fact is that the United 
States and China, and lots of other countries, are in great 
competition in African states for whatever resources they have 
there. That is apparent in hotels in any of the major capitals, 
where you run into a lot of people from China and India, even 
some from Europe. And so, once we talk about a military 
organization there, some--the Chinese would say that they have 
already thought about that, they try to protect whoever their 
oil workers are. They realize this is difficult terrain, 
whether it's Sudan or wherever else they might be. But it's an 
existential problem for them to draw back these resources, come 
hell or high water, leaving aside African democracy or 
sensitivities and so forth. And yet, in many ways, the Chinese 
have been fairly successful, diplomatically, in many states, 
because of the nature of the rulers, perhaps, or perpetuating 
of that type of power. I just have not heard yet, in the 
testimony about AFRICOM, about the realities on the ground in 
Africa--with regard to the Chinese, in particular, plus others, 
and the needs they see for their country, their foreign 
policies, and how these intersect with what we're attempting to 
do, I believe, in a very straightforward and constructive way.
    So, I'd just ask you--hopefully, all of you are being 
consulted in the process, not only by this Committee, being 
asked to testify, but by others who are planning policy in the 
African situation. And let me just ask, first of all, Are you 
being consulted? Are some of the ideas that are being presented 
to us--are these evident in the planning, the discussion, the 
debate, and what have you, as you see it, in State Department, 
Defense Department, or elsewhere?
    Dr. Morrison, do you have a view on that subject?
    Dr. Morrison. Thank you, Senator.
    On the question of consultation, I believe that there's an 
expanding receptivity and openness to----
    Senator Lugar. Good.
    Dr. Morrison [continuing]. To hearing other people's 
opinions and soliciting ideas and airing some of these issues, 
after a period in which I think, you know, when the President 
signed the initial paperwork, in November, and then made the 
official announcement, in February, there was a huge amount of 
internal work that had to be done within DOD and in the 
interagency to move forward to the point where they could then 
begin, in April and June, having the consultations. This was a 
very inward process that did not have all that much external 
outreach. But I think we're in a different phase now, and I 
think, as General Ward steps into the leadership position--
soon, presumably--I think that will grow even larger.
    And the question around China, I don't think that that has 
figured strategically in the preparations or thinking. And that 
may just be that it's a sequential thing, and there needs to be 
time to reach that point.
    The Chinese engagement, the biggest plays are in Nigeria, 
Angola, Equatorial Guinea, and Sudan, as we all know. These are 
areas where the United States has huge foreign policy equities, 
as well as--not energy stakes in Sudan, but huge stakes on 
multiple other levels in Sudan, and huge energy stakes in the 
same places that China has drawn. That would argue for closer 
coordination, particularly in the shared interest in having a 
stable and secure environment through which business can be 
transacted, to have stable governance, and accountable and 
transparent governance, and working collaboratively to try and 
get to that outcome.
    Thank you.
    Senator Lugar. Mr. Malan, do you have a thought about this?
    Mr. Malan. Yes, Senator. The--both State Department and the 
Department of Defense have been engaging with the NGO 
community. On two occasions, Refugees International has invited 
them to speak at fora that we've convened. I'm aware that they 
are, through interaction, getting broader viewpoints and 
consulting with the NGO community. However, on the two 
occasions--and some of the press briefings that I've attended 
where DOD has taken the strong lead in the briefing--they've 
moved on from the issues you raise, sir. And if you go to the 
transition-team Web site, under ``Frequently Asked Questions,'' 
``Let us explores some myths about AFRICOM. AFRICOM is not 
about counterterrorism, it's not about protecting our oil 
interests, and it's not about countering Chinese,'' and moving 
on, moving on, ``It's all about humanitarianism.'' Well, that 
doesn't sell. There's some extremely bright people in the NGO 
community, and there are, surprisingly enough, some extremely 
bright Africans. It just doesn't wash, sir.
    I tried to say, earlier on, that AFRICOM has a legitimate 
mission, and it's draft mission statement says that, ``U.S. 
Africa Command promotes U.S. national security objectives by 
working with African states and regional organizations to help 
strengthen stability and security in the area of 
responsibility.'' And it goes on. This is a clear, unambiguous, 
and legitimate military mission. And no African or humanitarian 
should object to that. But don't move off those strategic 
questions and gloss them over and move on to some humanitarian 
pitch. It just doesn't sell, sir.
    Senator Lugar. General, do you have a thought?
    General Gration. First of all, I'd say that General Jones 
is one of those people that has really crossed the bridge in 
the gulf between military and--he's the epitome of a soldier 
statesman. And it brings up a point, that we really need to 
train those kind of people. You know, people like General Jones 
just don't ``happen.'' I mean, he happened to have a 
background--they gave him a lot of cross-cultural experiences, 
growing up in France. But those are the kind of people that we 
need to promote and put in jobs, and it's going to be 
especially important in Africa, to be able to attract people 
that understand the African context, that understand how 
decisions are made, that understand that it may not be a 
PowerPoint briefing that wins the day, but it's a handshake, 
it's a look in the eye, and it's the trust, and it's treating 
people with respect and trust that's going to win.
    In terms of consultation, I have not been part of this 
since I left the military. Obviously, I was very much for 
Africa Command. As you know, back in the cold war, we were 
spending, in the European Command, only about 5 percent of our 
time in Africa. Now it's increasing. In my job in the J-5, I 
was spending probably 60 to 70 percent of my time looking 
south.
    And so, AFRICOM is a concept that is good, and it needs to 
happen, but we really have to deal with these questions that 
are being brought up. Is it really a military arm of U.S. 
policy? And should it focus on providing the logistics and the 
planning and the military strength, and going after those 
issues that have been brought up, like protecting our 
interests, doing noncombatant operations, holding things stable 
and secure while we do some long-term other kind of projects? 
Or should we be putting it all in one hat? And, if we put it 
all in one box, who's really in charge?
    And I agree that, when you start mixing all that stuff 
together, the questions that you are asking, you're going to 
have to get good answers for, right up front. The command-and-
control piece, you know: What is the relationship with the 
State Department? The individual who is in charge of civil-
military affairs, What linkage do they have? And putting the 
right people into those jobs is going to be absolutely 
critical, people that have credibility in the State Department, 
people who can represent the State Department views, people 
that can advocate military views back up to other State 
Department. It's going to be very, very critical to get the 
right people, people like General Jones, that understand both 
sides and are able to do, not what's right for the military or 
what's right for the State Department and what's Republican or 
Democrat, but what's right for America.
    And that's why it's so important to get this right, 
because, until you get this piece right, you can't figure out 
how you should react to Chinese. But if you know your own 
interests, and you know where you're going, it's very easy to 
know where you should be going the same way, same day with 
other people, or when you should confront them, or where you 
should be working in cooperation. But it comes down to having a 
very clear all-across interagency policy and then handling 
these threats as they come up.
    Senator Lugar. Well, thank you.
    Thank you, again, Mr. Chairman, for chairing this meeting 
and allowing us to raise these questions, which I think are 
important for our State Department and our Department of 
Defense to consider as we evolve.
    Senator Feingold. As we conclude, let me first thank 
Senator Lugar for his very insightful remarks, which I enjoyed 
and we all benefit from.
    And let me just say how pleased I am with this panel. You 
know, I've been trying to help make this AFRICOM happen, and I 
still believe it can be a very useful thing, with the proper 
efforts being made that were suggested. I also think that we're 
getting at it at a time before it's too settled in, so this is 
a timely hearing, where some of the concerns, I hope, will be 
addressed. And I hope what we heard will be taken seriously.
    There's no point in pretending, by the State Department or 
anyone else, that there are not serious concerns in Africa, or 
trying to minimize those concerns. Those concerns have to be 
addressed very aggressively. I came on this subcommittee 15 
years ago, because I was told that this area of the world was 
not taken very seriously, and that I would have to do some time 
on the Africa subcommittee before I got the other committees. I 
said, ``That sounds to me like a bad policy, and I'm going to 
spend as long as I'm in the Senate, on this committee, so we 
take this part of the world more seriously.'' That should be 
the spirit of AFRICOM, not something that makes Africans think 
that we lead with our military. We should indicate a very 
balanced approach, and AFRICOM should be part of that.
    I hope this has been helpful, and I know that Senator Lugar 
and I have benefited from it.
    Thank you very much. That concludes the hearing.
    [Whereupon, at 12:09 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
